INDEX TO APPENDICES
APPENDEXA

Decision of State Court of Appeals

APPENDEX B

Decision of State Trial Court
Circuit Court, Third Judicial Circuit, Madison County, Illinois

APPENDEX C

Decision of State Supreme Court
Denying Review of Case 126785 issued April 21, 2020

APPENDEX D

Order of State Supreme Court
Denying Rehearing Issued April 24,2021

APPENDEX E

Resolution Approving Use
as Manugactured Home Community

APPENDEX F

Meeting with Respondent
Advising Petitioner land could not be used

APPENDIX
A
DECISION OF STATE COURT OF APPEALS
CASE NUMBER 5-20-0065
ISSUED NOVEMBER 23, 2020

2020 IL App (5th) 200065-U

NOTICE
Decision filed 11/23/20. The
text of this decision may be
changed or corrected prior to
the filing of a

NOTICE
This order was filed under

NO. 5-20-0065

Supreme Court Rule 23 and
may not be cited as precedent

Petition for

by any party except in the

IN THE

Rehearing or the disposition of

limited circumstances allowed

the same.

i

under Rule 23(e)(1).

APPELLATE COURT OF ILLINOIS
FIFTH DISTRICT

MICHAEL STOREY,

)
)
)
)
)
)
)
)
)

Plaintiff-Appellant,
v.
THE CITY OF ALTON,
Defendant-Appellee.

Appeal from the
Circuit Court of
Madison County.
No. 18-MR-147
Honorable
Sarah D. Smith,
Judge, presiding.

%%
%

PRESIDING JUSTICE WELCH delivered the judgment of the court.
Justices Moore and Overstreet concurred in the judgment.
ORDER
11

Held. The trial court’s dismissal of the plaintiffs third amended complaint is
affirmed where the plaintiff had no current lawfully vested right that could
be enforced by a mandamus order, and his regulatory takings claim was
barred by the doctrine of resjudicata.

12

The plaintiff, Michael Storey, pro se filed a three-count complaint in the circuit

court of Madison County against the defendant, the City of Alton (City), seeking to compel
the defendant to allow him to develop his property in accordance with a 1986
preannexation agreement and the Official City Code of Alton (City Code), asserting that
the City’s action in denying his proposed subdivision plat constituted a regulatory taking,
and seeking punitive damages against the City. Thereafter, the trial court dismissed his
1

pro se complaint, finding that he had no current lawfully vested right that could be enforced
by way of a mandamus order, that he failed to meet his burden for invoking the doctrine of
estoppel, that his regulatory takings claim was barred by the doctrine of res judicata, and
that the City was immune from punitive damages. The plaintiff then filed a motion to
reconsider, which was denied. For the reasons that follow, we affirm the court’s dismissal
of the plaintiffs third amended complaint.

H3
H4

I. BACKGROUND
In 1999, the plaintiff purchased a five-acre plot of land in Alton, Illinois, for the

purpose of developing the land into a subdivision consisting of lots for manufactured
(mobile) homes. He purchased the property from his father. The property was annexed
into the City by means of a 1986 preannexation agreement; the plaintiff alleged that the
preannexation agreement stated that all property included in the annexation would be zoned
R-6 allowing it to be used for the placement of manufactured homes and that the owner of
the property would be entitled to subdivide the property. Because he sought to subdivide
the property into separate lots in accordance with the preannexation agreement, he was
required to obtain City approval for his proposed subdivision. Shortly after purchasing the
property, the plaintiff submitted his proposed plat for preliminary City approval. From
2000 through 2003, the plaintiff discussed his plans with the City, and the plat was
reviewed at multiple City planning commission meetings. The City ultimately denied his
plat for the proposed subdivision, at least in part on the fact that the available water supply
provided insufficient pressure for fire safety purposes (there was a 500 gallon per minute

2

requirement for the water supply). The entire property was served by the Fosterburg Water
District and had never met the 500 gallon per minute requirement.

115

In 2008, the plaintiff again submitted a proposed plat to the City. He withdrew the

2008 plat as the planning commission was in the process of issuing a recommendation that
it be rejected because of errors in his lot dimensions and/or legal description. The plaintiff
alleged that this withdrawal was with the express understanding that any future plats would
not be subject to any ordinances not in effect in July 1986, when the preannexation
agreement was entered. On April 10, 2002, the City allowed the plaintiff to subdivide the
property, creating one lot out of the larger tract and thereafter allowed him to place a
manufactured home on that lot. The City also allowed him to sell and transfer deed to that
lot in July 2002. The City thereafter allowed him to develop a second manufactured home
site on that property and place a manufactured home there. The City also issued numerous
occupancy permits for those two homes.

116

The plaintiff subsequently submitted two proposed plats in 2013, but the City

notified him that they were defective due to various problems and omissions relating to the
property descriptions, contour lines, street dimensions, and utility information. After being
notified of these defects, the plaintiff did not submit another proposed plat.

H7

In November 2015, the plaintiff filed a pro se civil rights complaint in the United

States District Court for the Southern District of Illinois (the district court). In his pro se
complaint, the plaintiff asserted that the City had used its position to prevent him from
subdividing his property into lots for manufactured homes, that the City had refused to
accept valid preliminary plats under false pretenses, and that the City continuously cited

3

ll

him for ordinance violations in an effort to convince him to abandon his plans to develop
his property. He alleged that the City had allowed his neighbors to violate City ordinances.
He asserted that the City claimed that he did not have enough water supply to subdivide
his property but continued to annex property into the City even though those properties had
the same water supply. He claimed that the City had denied him the use of his land since
1999, that they were using selective prosecution and malicious prosecution, and that they
had denied him equal protection under the law. He requested compensatory and punitive
damages.

H8

After both sides moved for summary judgment, the district court granted summary

judgment in favor of the City. In the order, the district court analyzed count I of the
plaintiffs prose complaint as an equal protection claim. The district court noted that
constitutional tort claims in Illinois filed pursuant to 42 U.S.C. § 1983 (1996) were subject
to a two-year statute of limitations, and thus, a fourteenth amendment equal protection
claim would be subject to a two-year limitation period. The district court also noted that
state law claims against Illinois municipalities were subject to a one-year statute of
limitations (745 ILCS 10/8-101 (West 2016)). Therefore, the court noted that any equal
protection claim that accrued more than two years prior to November 30, 2015, (the date
the plaintiff filed his lawsuit) was time barred. As the plaintiffs most recently submitted
proposed plats to the City were in August and September of 2013, his equal protection
claim relating to these two submissions was time barred. The court further noted that he
had submitted no new proposed plats after that time period. Because no alleged wrongful

4

act occurred within the two-year period prior to filing suit, the plaintiffs claim was time
barred.

119

With regard to his claim that his equal protection rights were violated because the

City issued him ordinance violation citations but declined to issue citations for neighboring
properties, the district court noted that the plaintiff did not dispute that he had committed
ordinance violations. The gist of his claim was that his neighbors had also committed
ordinance violations, but the City did not prosecute them. However, the district court noted
that law enforcement officials were entitled to a great deal of discretion in how they chose
to prosecute offenses, and that since they had limited resources at their disposal, it was
unrealistic to assume that every ordinance violation or criminal act would be prosecuted.
;

The district court further noted that it had been unable to find any reported cases where a
plaintiff had demonstrated a cognizable equal protection claim on the basis of being issued
legitimate citations. Thus, the district court found that, at the heart of the plaintiffs claim
was an allegation of uneven enforcement, which without something more, was unable to
survive summary judgment. Accordingly, the district court found that the plaintiff failed
to establish that he was entitled to judgment as a matter of law.
K 10

Thereafter, the plaintiff appealed to the United States Court of Appeals for the

Seventh Circuit (court of appeals), which, on February 2,2018, affirmed the district court’s
decision. In its order, the court of appeals found that the plaintiffs equal protection claim
relating to the subdivision of his land was untimely under the two-year statute of limitations
applicable to 42 U.S.C. § 1983 cases arising in Illinois because his most recent proposal
was rejected more than two years before he filed this suit. The court of appeals noted that
5

the plaintiffs injury would arise from the City’s denial of his request to subdivide his
property; that his claim accrued when he knew or should have known that his constitutional
right to equal protection purportedly was violated; and that this occurred when the City
denied approval, which was something that last occurred in September 2013, more than
two years before he filed this suit in November 2015. The court of appeals acknowledged
the plaintiffs argument that the lingering effects of the City’s plat denials continued to
injure him, but it concluded that this was insufficient to save his claim. As for his selective
enforcement claim, the court concluded that this claim also failed because the plaintiff had
not provided any evidence that the City treated a similarly situated landowner differently
from him, nor had he shown that the City lacked a rational basis for its actions. Moreover,
the fact that the plaintiff admitted that he committed certain ordinance violations and paid
fines for those violations demonstrated that the City had a rational basis for citing him. On
June 11,2018, the United States Supreme Court denied certiorari. Storey v. City ofAlton,
No. 17-8783 (U.S. June 11, 2018).

in

On May 31, 2018, the plaintiff filed a complaint for mandamus in the circuit

court of Madison County. In the complaint, he alleged, in pertinent parts, that his property
was properly zoned for the placement of multiple manufactured homes; that the City had
denied him the use of his property since 2000 by claiming that it lacked a sufficient water
supply to be developed; that the City Code did not prevent him from subdividing his land
and had no provision concerning a sufficient water supply: and that although the City
claimed his property must have a water supply of at least 500 gallons per minute to develop,
it had allowed and continued to allow his neighbors and surrounding property owners to
6

develop and use their property without meeting this same standard. The plaintiff also
alleged that he had filed numerous ordinance violation complaints with the City concerning
neighboring properties, and the City had refused to take action against those property
owners. The plaintiff requested, inter aiia^ an order of mandamus compelling the City to
allow him to develop his property while having the same water supply as others under the
City’s jurisdiction and to apply its City Code to all residents on an equal basis. He
requested compensatory as well as punitive damages.
H 12

On August 10, 2018, the City filed a motion to dismiss the plaintiffs complaint for

mandamus on the grounds that the doctrines of claim preclusion and issue preclusion both
barred the plaintiffs lawsuit as the issues and claims presented by the plaintiff in the
previous federal litigation were identical to the issues and claims presented in this case.
The City also contended, in pertinent part, that the plaintiffs complaint failed to state a
cause of action upon which relief could be granted pursuant to section 2-615 of the Code
of Civil Procedure (Code) (735 ILC.S 5/2-615 (West 2016)) because a mandamus action
was not appropriate to compel discretionary acts.
K 13

Before the trial court ruled on the City’s motion to dismiss, the plaintiff sought to

amend his complaint with additional counts, including a claim for regulatory taking. The
amended complaint was filed on January 25, 2019. Thereafter, on February 5, 2019, the
City filed a motion to dismiss the plaintiffs amended complaint. Before the adjudication
of that motion, the plaintiff moved to voluntarily dismiss several counts of his amended
complaint and sought leave to file a second amended complaint, which again brought a
mandamus action and a regulatory takings claim.
7

U 14

On April 26, 2019, the trial court dismissed the plaintiffs second amended

complaint without prejudice and allowed him 30 days to file a third amended complaint.
On May 2, 2019, the plaintiff filed a third amended complaint, which is the subject of this
appeal. In the three-count complaint, the plaintiff sought a writ of mandamus, asserted a
regulatory takings claim, and sought punitive damages against the City. The plaintiff
alleged that the only public water supply available to serve his property had a flow of 400
gallons per minute, but the City had previously allowed him to subdivide the property and
issued him numerous occupancy permits for that property, even though it did not meet the
water supply standards. The plaintiff contended that the City’s actions were in direct
conflict with the principle of estoppel. The plaintiff also alleged that the City issued
building and occupancy permits for homes within its jurisdiction that did not meet the water
flow requirement. The plaintiff also argued that the City’s actions conflicted with its City
Code, which required fair enforcement. Thus, the plaintiff sought a mandamus directing
the City to allow him to develop his property in compliance with the City Code and the
preannexation agreement.
t 15

In the count alleging a regulatory taking, the plaintiff asserted that he had no remedy

for increasing the available water supply to his property to the required standard. He also
alleged that the City’s fire chief had power to modify any Fire Prevention Code (Fire Code)
provision that was practically difficult to comply with, but the fire chief refused to modify
the water supply requirement with regard to the plaintiffs property. He contended that the
City’s actions amounted to a regulatory taking of his property that caused him financial

8

losses in excess of $500,000.

Thus, he requested actual damages in the amount of

$500,000.
K 16

As for the plaintiffs punitive damages claim, he alleged that the cost of installing

a 1300 foot water main to comply with the water supply requirement would be financially
impractical; that the City’s continued denial to allow him to use his property had caused
him severe financial losses; and that the City had alternative options available that would
either allow it to waive the requirement or assist him in complying with the requirement,
but the City refused to utilize those options. The plaintiff contended that the City’s refusal
to use those options was willful, malicious, and with forethought. The plaintiff requested
punitive damages in the amount of $500,000.
H 17

On May 30, 2019, the City filed a motion to dismiss the third amended complaint

pursuant to section 2-619.1 of the Code (735 ILCS 5/2-619.1 (West 2018)). In the motion,
the City argued that it was significant that the plaintiff had not indicated that he had
pending, or even recently filed, any plans for development. As such, the City argued that
any order by the trial court on a mandamus claim would be advisory at best. The City
argued that mandamus actions were proper to compel public officials to perform purely
ministerial, nondiscretionary acts; that mandamus could not be used to order the execution
of a discretionary duty; and that no such clear-cut nondiscretionary act was present here.
The City contended that the plaintiffs mandamus argument was further undercut by his
acknowledgment that the City’s fire chief had discretion to modify certain provisions of
the City Code and that the trial court could not order the fire chief to violate the law and
the Fire Code. The City contended that that any argument based on the 1986 preannexation
9

!.

agreement was time barred under section 11-15.1-5 of the Illinois Municipal Code (65
ILCS 5/11-15.1-5 (West 2018)).
U 18

Moreover, the City argued that numerous building codes, including the City’s Fire

Code, were involved in this proposed development and that the plaintiff was seeking to
circumvent public safety requirements. The City also argued that any order requiring
compliance with the preannexation agreement would not alter the position of the parties as
the plaintiff had not recently filed a plan for proposed development.
U 19

As for the plaintiffs estoppel claim, the City contended that estoppel could not be

used to endanger public health as the plaintiff was seeking to do. The City also argued that
the plaintiff failed to state a cause of action for estoppel as he had alleged no facts regarding
detrimental reliance. The City argued that the plaintiff had pled that the City had been very
consistent in dealing with him and that there was no basis for applying estoppel under the
theory that “ ‘they got to do it so I should get to do it too. 5
U 20

*5

As for his regulatory takings claim, the City asserted that claim was barred by

resjudicata because it should have been brought in the federal court action, and the plaintiff
had a full and fair opportunity to litigate this matter in federal court. The City noted that
the doctrine of claim splitting precluded a party from bringing a duplicate lawsuit arising
from the same transaction or events underlying a previous suit by simply changing the legal
theory.

Moreover, the City argued that the federal court’s rulings on the statute of

limitation issue were dispositive.
1121

With regard to the plaintiffs punitive damages claim, the City noted that

municipalities were absolutely immune from punitive damages under section 2-102 of the
10

h

Local Governmental and Governmental Employees Tort Immunity Act (Tort Immunity
Act) (745 ILCS 10/2-102 (West 2018)). Accordingly, the City requested that the trial court
dismiss the plaintiffs third amended complaint.

H 22

On June 17, 2019, the plaintiff filed a response to the City’s motion to dismiss. In the motio: !

2019,1 there was no statute of limitation issue. He also argued that his federal case dealt
with zoning and plat approval, and neither of these two issues were raised in his complaint
at issue here. Thus, he argued that he was not relitigating issues brought in the federal
court. He further contended that the City’s continued denial of the use of his property
resulted in a regulatory taking, and his property could not be used for any practical purpose
as a result of the City’s refusal to approve his proposed plat.
123

The plaintiff argued that a cause of action was clearly stated in his complaint as the

City refused to follow the City Code, that his mandamus action was to compel the City to
perform the purely ministerial nondiscretionary act of enforcing its City Code, that he was
not asking for anything other than acts the City had performed in the past, and that a
mandamus would resolve the issue of the City’s regulatory taking of his property. He
contended that the City and the City’s fire chief had exercised their discretion by allowing
variances to other property owners who had placed homes in areas that failed to meet the
City’s Fire Code; that the City’s argument that his proposed development would endanger
public health when other developments were approved without meeting the City’s water
supply standard was meritless; and that the fire chief had discretion to modify the City Fire

'in his appellant brief, he asserted that he had no pending plat with the City and has not presented
any plat to the City since 2008.
11

Code to allow for his subdivision, so the fire chief would not be violating any law or code
by allowing him to develop his property with the available water supply. He asserted that
the City’s actions were malicious and were intended to prevent him from developing his
subdivision.
f 24

On July 12, 2019, the trial court held a hearing on the City’s motion to dismiss. At

the hearing, the City contended that mandamusw&s not an appropriate remedy because the
court could not order the City to do a discretionary act; that the plaintiffs claim was time
barred because he relied on a 1986 ordinance/preannexation agreement, and those
agreements expire within 20 years; that the plaintiffs complaint did not properly state a
cause of action for estoppel; that his regulatory takings claim was a relitigation of issues
previously brought in his federal court case; and that municipalities were immune from
punitive damages. As for the plaintiff filing a proposed plat in April 2019, the City argued
that if the plaintiff wanted to rely on a currently pending plat, then there were issues with
his failure to exhaust administrative remedies and with his claim not being ripe.

In

response, the plaintiff contended that the City’s actions precluded him from being able to
use his property as zoned, and the City had previously allowed him to subdivide and place
two mobile homes on the property without meeting the water supply requirement, so it was
estopped from enforcing that rule against him now.

1 25

On December 19, 2019, the trial court entered an order, granting the City’s motion

to dismiss the plaintiffs third amended complaint. In the order, the court noted that the
purpose of a mandamus action was to enforce rights that were already lawfully vested at
the time the suit was filed and that to establish standing in a mandamus action, the
12

complaining party must show a sufficiently protectable interest pursuant to statute or
common law that was allegedly injured. The court found that the plaintiff had not asserted
that he had a current lawfully vested right that could be enforced by a mandamus order.
Although the court acknowledged that the plaintiff alleged that he had a preliminary plat
pending with the City, it found that the issue was not ripe for the court’s determination.
The court noted that the plaintiff was essentially asking it to provide an advisory opinion
to the City regarding said plat, which was outside the court’s purview.

H 26

Also, the trial court noted that the plaintiff had invoked estoppel in his complaint by alleging

§ 11-15.1-5.2 Further, the court noted that to allege estoppel, the aggrieved party must
show that (1) the municipality affirmatively acted, (2) its act induced the aggrieved party’s
substantial reliance, and (3) the aggrieved party substantially altered its position due to the
justifiable reliance. The court found that the plaintiff had not met this burden.

1 27

Regarding his regulatory takings claim, the trial court stated that it spent a

significant amount of time reviewing the plaintiffs case filed in the district court and
agreed that the regulatory takings claim here was factually similar to the allegations raised
in the federal case. As such, the court found that his regulatory takings claim was barred
2 In

determining that the plaintiffs detrimental reliance claim would be time barred, the trial court
incorrectly cites to “65 ILCS 5/11-15.5-If which does not exist. However, section 11-15.1-1 of the Illinois
Municipal Code states as follows with regard to annexation agreements with owners of record: “The
corporate authorities of any municipality may enter into an annexation agreement with one or more of the
owners of record of land in unincorporated territory, * * * The agreement shall be valid and binding for a
period of not to exceed 20 years from the date of its execution.” 65 ILCS 5/11-15.1-1 (West 2018). Also,
section 11-15.1-5 of the Illinois Municipal Code states as follows regarding the validity of existing
preannexation agreements: “Any annexation agreement executed prior to October 1, !973[,] which was
executed pursuant to a two-thirds vote of the corporate authorities and which contains provisions not
inconsistent with Section 11-15.1-2 hereof is hereby declared valid and enforceable as to such provisions
for the effective period of such agreement, or for 20 years from the date of execution thereof, whichever is
shorter.” Id. § 11-15.1-5.

13

i

I

by resjudicata as it had already been litigated in federal court. With regard to his punitive
damages claim, the court found municipalities were immune from punitjve damages
pursuant to section 2-102 of the Tort Immunity Act (745 ILCS 10/2-102 (West 2018)).
Accordingly, the court dismissed the plaintiffs third amended complaint with prejudice.
^ 28

On December 19, 2019, the plaintiff filed a motion to reconsider. On February 13,

2020, the trial court denied his motion to reconsider, finding that the plaintiff had not
alleged any new information in his motion that was not already considered. The plaintiff
appeals.
II. ANALYSIS

It 29
H 30

Before addressing the substance of this appeal, we must first discuss the City’s

request to strike the plaintiffs appellant brief and dismiss the appeal. The City argues that
the plaintiff waived his arguments by failing to cite to any authority in his pro se appellant
brief as required by Illinois Supreme Court Rule 341(h)(7) (eff. May 25, 2018). The City
also contends that the plaintiffs prose brief fails to comply with Rule 341 in that (1) it
does not clearly define the issues on appeal (see Ill. S. Ct. R. 341(h)(3) (eff. May 25,2018)),
(2) the plaintiff does not present cohesive arguments (see Obert v. Saviile, 253 Ill. App. 3d
677, 682 (1993)), (3) his statement of facts does not cite to the record on appeal (see Ill. S.
Ct. R. 341(h)(6) (eff. May 25, 2018)), and (4) his “issues presented for review” does not
properly frame the legal issues presented on appeal (see Ill. S. Ct. R. 341(h)(3) (eff. May
25, 2018)). The City also argues that the plaintiff has attached extraneous exhibits to his
brief which were irrelevant and not considered by the trial court and that those documents
should be stricken.
14

K 31

We agree with the City that the plaintiffs brief does not meet the criteria set forth

in Rule 341(h). The plaintiff s statement of facts lacks any citation to the record on appeal.
The plaintiff also fails to cite any pertinent legal authority to support his arguments on
appeal.

A reviewing court is entitled to the benefit of clearly defined issues

with pertinent authority cited and a cohesive legal argument. Obert,; 253 Ill. App. 3d at
682. “The appellate court is not a depository in which an appellant may dump the entire
matter of argument and research.” Wing v. Chicago Transit Authority, 2016 IL App (1st)
153517, H 11. Arguments that are not supported by citations to authority do not meet the
requirements of Rule 341(h)(7) and are procedurally defaulted. Lewis v. Heartiand Food
Corp., 2014 IL App (1st) 123303, ^ 5. Proselitigants are not excused from following the
rules that dictate the form and content of appellate briefs. In re Marriage ofBarile, 385 Ill.
App. 3d 752, 757 (2008). Adherence to Rule 341 is not an inconsequential matter, and
where an appellant’s brief fails to comply, this court has authority to dismiss the appeal for
noncompliance with its rules. Zadrozny v. City Colieges ofChicago, 220 Ill. App. 3d 290,
292-93 (1991).
H 32

However, even though the plaintiffs pro se brief does not comply with Rule 341,

we may still consider the appeal “so long as we understand the issue [the party] intends to
raise and especially where the court has the benefit of a cogent brief of the other party.”
Twardowski v. Holiday Hospitality Franchising, Inc., 321 Ill. App. 3d 509, 511 (2001).
Because the plaintiffs brief here makes clear some of the issues that he intends to raise on
appeal, and our review is facilitated by a cogent brief of the City, we choose to reach the
merits. In making a decision on the merits, we want to make clear that we will not consider
35

i

any documents that are included in the plaintiffs appendix but were not part of the record
on appeal.
H 33

Now, we turn to the merits of the plaintiffs appeal. The plaintiff first contends that

the trial court erred in dismissing his claim for mandamus where he is only asking the City
to perform duties that it performs on a daily basis and has previously performed numerous
times with regard to his property.

The plaintiff next argues that the court erred in

dismissing his regulatory takings claim where the City’s conduct has denied him the use
of his land.
H 34

As set out above, the case was decided on the City’s motion to dismiss filed

pursuant to section 2-619.1 of the Code (735 ILCS 5/2-619.1 (West 2018)). Section 2619.1 of the Code permits a party to combine a section 2-615 motion to dismiss based upon
a plaintiffs substantially insufficient pleadings with a section 2-619 motion to
dismiss based upon certain defects or defenses. Id. When ruling on a motion to dismiss
under either section 2-615 or section 2-619, the court accepts all well-pleaded facts in the
complaint as true and draws all reasonable inferences from those facts in favor of the
nonmoving party. Edelman. Combs & Lattumer v. Hinshaw& Culbertson, 338 Ill. App.
3d 156, 164 (2003). Our review of motions to dismiss brought under both sections 2615 and 2-619 is denovo. Id.
H 35

Mandamus relief is an extraordinary remedy that is used to compel a public officer

or body to perform a nondiscretionary (mandatory) official duty. McFatridge v. Madigan.
2013 IL 113676,H 17. To obtain mandamus relief, a plaintiff must establish the following
three elements: (1) a clear right to the relief requested, (2) the public officer has a clear
16

h

duty to act, and (3) the public officer has clear authority to comply with an order granting
mandamus relief. Id. However, mandamus may not be used to compel a public officer to
perform an act that involves the exercise of the public officer’s discretion. Id. In a
mandamus proceeding, no rights can be acquired as the purpose of a mandamus is only to
enforce rights already lawfully vested.

Saline Branch Drainage District v. Urbanar

Champaign Sanitary District, 395 Ill. 26, 37 (1946).
K 36

Here, based on the allegations contained in the plaintiffs third amended complaint,

we agree with the trial court that the plaintiff has no current lawfully vested right which
can be enforced through a mandamus order. The plaintiff sought a mandamus directing
the City to abide by its City Code and allow him to develop his property in accordance with
that code. In seeking a mandamus, the plaintiff acknowledges that the last time that he
filed a proposed plat with the City was in 2008, that there was currently no proposed plat
pending with the City in regard to the development of his property, and that the City’s fire
chief had discretion under section 10-1-4 of the Fire Code (Alton City Code § 10-1-4
(adopted Feb. 26, 1997)) to allow variances to the water supply requirement under certain
circumstances. As the plaintiff currently has no pending plat before the City and seeks to
compel a public official to perform an act that involves the exercise of that official’s
discretion, we conclude that a mandamus action cannot be used to compel the City to
modify its code to allow the plaintiff to develop his property as previously requested.
H 37

The plaintiff also argues that the trial court erred in finding that he could not meet

his burden for invoking the doctrine of estoppel. To invoke equitable estoppel against a
municipality, a plaintiff must plead specific facts that show (1) an affirmative act by either
17

the municipality itself or an official with express authority to bind the municipality and
(2) reasonable reliance upon that act by plaintiff that induces plaintiff to detrimentally
change his position. Patrick Engineering, Inc. v. City ofNaperville, 2012 IL 113148, K 40.
First,, there must be an affirmative act by a municipality that induces reliance by a private
party. Id U 39. Second, the reliance must be detrimental and reasonable. Id. A plaintiff
must not only have substantially changed his position, based on the affirmative act of the
municipality or its officials, but also justifiably done so, based on his own inquiry into the
municipal official’s authority.

Id.

“When public revenues are at stake, estoppel is

particularly disfavored.” Id. K 40.
1|38

Here, in the plaintiffs third amended complaint, he identified some previous acts

by the City, such as allowing him to subdivide one or two lots and place two manufactured
homes on his property, to demonstrate detrimental reliance. Specifically, he contended
that since the City had previously allowed him to subdivide his property, he reasonably
believed that it would grant him permission to further subdivide the property for additional
manufactured homes. However, the plaintiff has failed to allege any specific facts that he
substantially changed his position based on the City’s affirmative acts. Moreover, as the
trial court noted, the plaintiff cited to a 1986 preannexation agreement (Alton Ordinance
No. 5065 (approved July 9, 1986)) to justify his reliance.

However, preannexation

agreements only bind a municipality for at most 20 years. 65 ILCS 5/11-15.1-1 (West
2018);/d § 11-15.1-5. Therefore, any claim based on the preannexation agreement would
be time barred. Accordingly, we conclude that the court did not err in dismissing the
mandamus claim in the plaintiffs third amended complaint.
18

139

The plaintiff next argues that the trial court erred in dismissing his regulatory

takings claim. Finding that the plaintiffs regulatory takings claim was factually similar to
the allegations raised in his federal case, the court concluded that the claim was barred by
the'doctrine of resjudicata.
140

The doctrine of resjudicata instructs that a final judgment on the merits rendered

by a court of competent jurisdiction bars any subsequent actions between the same parties
or their privies on the same cause of action. Hudson v. City of Chicago, 228 Ill. 2d 462,
467 (2008). Resjudicata bars not only what was actually decided in the first action but
what could have been decided in that action. Id. There are three requirements that must
be satisfied for resjudicataXo apply: (1) a final judgment on the merits rendered by a court
of competent jurisdiction, (2) an identity of cause of action, and (3) identical parties or their
privies in both actions. Id. “Claim splitting, a form of resjudicata, precludes a party from
bringing a duplicative lawsuit arising from the same transaction or events underlying a
previous suit by simply changing the legal theory.” Lavite v. Dunstan, 2019 IL App (5th)
170114,140.
141

The plaintiff contends that the doctrine of resjudicata does not apply because this

claim was not the same as the claim brought in federal court. Specifically, he argues that
he did not bring a regulatory takings claim in federal court and instead brought an equal
protection claim based on the City’s unequal enforcement of its water supply requirement.
However, after a careful comparison of the two claims, we find that, although the actual
legal theories are different (a regulatory takings claim versus an equal protection claim),
the underlying transaction or events for each of those claims are identical. The plaintiffs
19

I

third amended complaint concerns the City’s denial of his proposed subdivision plat based
on the lack of a proper water supply to his property. A review of the district court’s
decision demonstrates that this was exactly the same “wrong” that he sought to challenge
there. Thus, there is an unmistakable identity of claims. We conclude that the trial court
did not err in finding that the plaintiffs attempted rephrasing of his previously alleged
equal protection claim into a regulatory takings claim was barred under the doctrine of
resjudicata. Accordingly, we affirm the court’s dismissal of his third amended complaint.
III. CONCLUSION

H 42

K 43

For the reasons stated, we affirm the judgment of the circuit court of Madison

County dismissing the plaintiffs third amended complaint.

^ 44

Affirmed.

i

20

t

APPENDIX
B
DECISION OF STATE TRIAL COURT
CIRCUIT COURT, THIRD JUDICIAL CIRCUIT
MADISON COUNTY, IL
CASE NUMBER 18-MR-147
ISSUED
DECEMBER 19. 2019

IN THE CIRCUIT COURT
THIRD JUDICIAL CIRCUIT
MADISON COUNTY, ILLINOIS

#1%
'•'A hui

ft^019
Wr\ n

MICHAEL STOREY
Plaintiff
CITY OF ALTON
Defendant.

)
)
)
)
)
)
)

No.

n

18 MR 147

ORDER
Cause comes before the court on Defendant City of Alton’s Motion to Dismiss Plaintiff
Michael Storey’s Third Amended Complaint. Both parties appear and after all arguments were
heard this Court took the matter under advisement.
The Court having taken considerable time to review the pleadings in this matter,
pleadings filed in federal court relating to this issue, as well as Illinois case law does hereby
grant Defendant’s Motion to Dismiss Plaintiffs Complaint with prejudice for the following
reasons:
COUNT I
Count I of Plaintiffs Third Amended Complaint is for “writ of mandamus” asking the
court to direct Defendant to abide by its official city code and to allow Plaintiff to develop his
property in compliance with said code. The purpose of a mandamus action is to enforce the
rights that are already lawfully vested at the time the suit is filed.

Saline Branch Drainage

District v. Urbana-Champaign Sanitary District, 395 Ill. 26, 37, 69 N.E.2d 251 (1946). To
establish standing in a suit seeking a writ of mandamus the complaining party must stablish that
there is a “sufficiently protectable interest pursuant to statute or common law which is alleged to
be injured. Hill v. Butler, 107 Ill. App. 3d 721, 725 (1982). As plead in Plaintiffs recent
complaint there is no current lawfully vested right which can be enforced at this time by way of a
mandamus order.

While the plaintiff has alleged in argument before the court and in his

responsive motions that he has a pending preliminary plat with the City of Alton, that issue is not
i

ripe for this court’s determination at this time. In essence what the plaintiff is asking this court
to do is provide an advisory opinion to the City of Alton regarding said plat and that is outside
the Court’s purview.
Page 1 of 2

^

<A-

i

Plaintiff also invokes estoppel in his complaint, alleging the municipality allowed
certain infrastructures to be built on (othep)properties and that he reasonably relied on this
permission to his detriment for this property. Moreover, Plaintiff continues to cite to a pre­
annexation agreement entered into by the City in 1986 to justify his detrimental reliance, but as
noted in Defendant’s motion to dismiss, any such claim for this issue would be time barred in
accordance with 65 ILCS 5/11-15.5-1. Furthermore, in order to allege estoppel, the aggrieved
party must show that 1- the municipality affirmatively acted; 2- its act induced the aggrieved
party’s substantial reliance, and 3- the aggrieved party substantially altered its position due to the
justifiable reliance. Mr. Storey has not met his burden.
COUNT II
Plaintiff alleges the actions of the Defendant have deprived him of the use of his property
and therefore constitute “Regulatory Taking.” The court spent a significant amount of time
reviewing his case in the US District Court for the Southern District of Illinois (15-cv-1310).
And agrees that this count I factually similar to the allegations raised in Plaintiff s federal case.
As such, the Court finds his claim for regulatory taking to be barred by res judicata as it has
already been litigated in federal court.
COUNT III
Plaintiffs claim for punitive damages as a result of Defendant’s actions, pursuant to 745
ILCS 10/2-102 municipalities are immune from punitive damages.

SO ORDERED

n

Date

He a. Sarah (D. Smith

Page 2 of2

J

APPENDIX
C
DECISION OF STATE SUPREME COURT
DENYING REVIEW
CASE NUMBER 126785
ISSUED
APRIL 21, 2021

SUPREME COURT OF ILLINOISWEDNESDAY, MARCH 24
2021THE FOLLOWING CASES ON THE LEAVE TO APPEAL
DOCKET WERE DISPOSED OF AS INDICATED:
i

126785 - Michael Storey, petitioner, v. The City of Alton, respondent.
Leave to appeal, Appellate Court, Fifth District. 5-20-0065 Petition for
Leave to Appeal Denied.

Overstreet, J. took no part.

I

i
i
i

I

I
i

I
I

I

APPENDIX
D
ORDER OF STATE SUPREME COURT
DENYING REHEARING
ISSUED
APRIL 24, 2021
i

l

\

J.

s

t

>

J

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
CAROLYN TAFT GROSBOLL
Clerk of the Court

April 21,2021

(217) 782-2035
TDD: (217) 524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Michael R. Storey
P.O. Box 112
Cottage Hills, IL 62018
In re:

Storey v. City of Alton
126785

Today the following order was entered in the captioned case:
Motion by Petitioner, pro se, for leave to file a motion for reconsideration of
the order denying petition for leave to appeal. Denied.
Order entered by the Court.
Overstreet, J., took no part.
Very truly yours,

Clerk of the Supreme Court
cc:

Charles Andrew Pierce

i
/■*

/

I

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
CAROLYN TAFT GROSBOLL
Clerk of the Court

April 21,2021

(217) 782-2035
TDD: (217) 524-8132

i

FIRST DISTRICT OFFICE
160 North LaSalle Street. 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

\

Michael R. Storey
P.O. Box 112
Cottage Hills, IL 62018
In re:

Storey v.- City of Alton
126785

Today the following order was entered in the captioned case:
Motion by Petitioner, pro se, for leave to file a motion for reconsideration of
the order denying petition for leave to appeal. Denied.
Order entered by the Court.
Overstreet J., took no part.
Very truly yours,

Clerk of the Supreme Court
cc:

Charles Andrew Pierce

■i

APPENDIX
E
RESOLUTIONS AND MEETINGS
APPROVING USE

!
I

I

I
I

r

!

I

I

/
MEMORANDUM

TO:

The Alton Plan Commission

FROM:

Phil Roggio, Director of Business & Economic Development

DATE:

June 27, 2000

RE:

Preliminary plat of Brandon Estates Subdivision (Culp Lane).

Ail requirements of Title 12 pertaining to the approval of a preliminary plat have been met.
The following design standard issues requiring discussion are as follows:
Streets:
Dedication for future Culp Lane improvements.
Cul-de-sac radius of Sandpiper is 41 feet (variance required).
Easements:
Rear yard easement of 10 feet on both the west and east side.
Sanitary Sewer:
Runs off-site to the south and east. Easements need to be granted to the City for entire
distance.
Lots:
Lot lines do not run at 90 degree angle to Sandpiper (variance required).
Sidewalks:
Both sides of street.
Storm Sewer:
Run-off directed off-site to the south. Easements need to be granted to the City.
Utilities:
Underground for electric, cable and telephone.
Water:
Source and alignment.
Street Lights:
Placement.

4

D

:

* r
MEMORANDUM

TO:

The Alton Plan Commission

FROM:

Phil Roggio, Director of Business & Economic Development

DATE:

June 27, 2000

RE:

Preliminary plat of Brandon Estates Subdivision (Culp Lane).

All requirements of Title 12 pertaining to the approval of a preliminary plat have been met.
The following design standard issues requiring discussion are as follows:
Streets:
Dedication for future Culp Lane improvements.
Cul-de-sac radius of Sandpiper is 41 feet (variance required).
Easements:
Rear yard easement of 10 feet on both the west and east side.

<

Sanitary Sewer:
Runs off-site to the south and east. Easements need to be granted to the City for entire
distance.
Lots:
Lot lines do not run at 90 degree angle to Sandpiper (variance required).
Sidewalks:
Both sides of street.
Storm Sewer:
Run-off directed off-site to the south. Easements need to be granted to the City.
Utilities:
Underground for electric, cable and telephone.
Water:
Source and alignment.
Street Lights:
Placement.

i

CfTYOF ALTON, DEPARTMENT OF FUHl nwr. s, 7n,v,vr

I

ADDRESS: 3622 CULP LN
OCCUPANT FULL NAME: EVELAND-ADELINE M
OCCUPANT DLit OR SS#:
321207097
CURRENT ADDRESS: INSPECTED APRIL 7 2003
PHONE:
OWNER NAME: STOREY-MJCHAEL & VICKIE
OWNER ADDRESS: 1787 STOREY LN
PHONE:

INSPECTION FEE:
WARD
TYRE OF STR UCTUR£;

OWNER DL# OR SSI!:
OWNER AGENT: STOREY-MICHAEL & VICKIE .STOREY-MICHAEL & VIC

□ SING. O DUPL. U MULTI
CONSTRUCTION:

AGENT ADDRESS: 1787STOREY LN ALTON IL 6W
PHONE:

□ BRICK O SIDING:
(WOOD, VINYL, ALUM., OTHER)

PERMIT NO.: 07020165
DATE: 06/ 25/ 2012
INSPECTION DATE &TJME:

IFLOORS: □ 1 □ 1 V; □ 2 □ 2 Vi Q 3
DIR. FACING: □ N □ S □ E O W
MAXIMUM OCCUPANCY:
FULL NAME(S), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME
c. VE LAND-.h DEL IDE K
EVE LAND-PERRY L

!

DL#

/ SS#
/ 321207097
/ 4806468 IS

D.O.B.
01/18/1925
08/27/1950

I

CODE INSPECTOR:

i

NOTE:

OWNER:

The owner and/or agent listed on this application
MUST BE PRESENT for the inspection.
PERMITS NOT ISSUED WITHIN 120 DAYS ARE VOID
NO EXCEPTIONS!!!

i
i

i

I

I

oo-cj- t'l'

RESOLUTION
BE IT RESOLVED BY THE CITY COUNCIL OF THE CITY OF ALTON,
ILLINOIS, that the preliminary plat of Brandon Estates be and the
same is hereby approved upon the condition that the final plat
shall contain certification by a reputable structural engineer
licensed by the State of Illinois assuring that the retaining
wall shown on the preliminary plat is properly designed so as not
to be a danger or nuisance to either Brandon Estates or adjacent
properties.

s/Phil Hanrahan

Alderman, City of Alton, Illinois

(PLAN COMMISSION RECOMMENDS A POSITIVE'VOTE)

i

I

PILED SEP 13 2000

6
r

i

n

c?-/3'

oo-

-rs -

<r i

RESOLUTION

3

COUNCIL OF THE CITY OF Cl TON,
BE IT RESOLVED BY
ILLINOIS. 3-.ha- the preliminary plat of Brar.dor: ~sr.al.es be and c!v.
same is nerebv aporovcd upon the ccrailion that tne final plat
shall contain certification b\ a reputable structural engineer
1 -.censed by the State at■ : 11 incus assuring that the retaining
wail shewn on the ere). 1 "air.ary plat, is properly assigned so as not
to be a danger or nuisance to either Brandon Estates or adjacent
proper!ies.

s/I-hii Hrinrah.in___ ___ ________

Aldexcnun,

City or Alton,

{.PLAN COMiU SSI DM RCCOMMEEDS A POSITIVE VOTE)

r!

FILED ^ 13 2000

/,

/V
(

i

hi; noi s

r

Farrell, Hunter, Hamilton 8£ Julian, P.C.
Attorneys At Law
}0HH A. FARBElt
CHRISTOPHER B. HUNTER*

1310 D'ADRIAN PROFESSIONAL PARK
GODFREY, II £2035-1 £8$

T*l*shsnt; f 18*446*9080
fix Nurr.b«r: 6 i $-«66-9 ! OS
fhh;-p£ipsiuJnrl.eon

RHlLLtPK. HAMILTON*

www.fhhipc.com

7A KMT M. JUUAK*
STEVEN M. OAWJON*

May 15,2001

• LICENSED IN UK HO
Of COUNSEL
J. THOMAS LONG*

The Honorable Donald Sandidge
Mayor
Alton City Hall
101 East Third Street
Alton, IL 62002
Re; Subdivision Plat of Brandon Estates
Dear Mayor Sandidge:
Following our May 15, 2001 meeting with you, Mr. Schrempf and Mr. Roggio, my client,
Michael Storey, desires to immediately withdraw the preliminary plat now on file for Brandon
Estates Mobile Home Development. This is being done with the express understanding, as
confirmed by Mr. Schrempf, that Mr. Storey will not be subjected to requirements on any
subsequent plats for this development which were not included in the zoning ordinances in effect
when the July 9. 1986 Preannexation Agreement between John and Rosemary Storey and the
City was approved.
i

Mr. Storey had previously filed, last fall, an application for a land contour permit with the
Public Works Department. He is requesting, again pursuant to the conversations during our May
15, 2001 meeting, that this permit be issued as soon as possible.' We are enclosing Mr. Storey’s
application fee of $50.00. His fee had previously been returned.
If you have any questions, please do not hesitate to call me.
Thank you for you: cooperation.
Very truly yours,
Christopher B. Hunter
C3H/xisn
Enclosure
cc:
Phil PvOggio
James Schrempf
Michael Storey

EXHIBIT
t

3
£

!

)

r>, * Oos ■

7

Ht

*0-^3$

i

RF.SO L UTIQN
I

BE IT RESOLVED BY THE CITY COUNCIL OF THE CITY OF ALTON, ILLINOIS
i
i

that the preliminary and final plat of Brandon Estates, a subdivision located in the

i

Northwest Quarter of Section 3, Township 5 North, Range 9 West of the Third Principal
Meridian, Alton, Madison County, Illinois, (see artached legal), situated in the 3600 block
of Culp Lane, off Fosterburg Road, BE AND IS HEREBY APPROVED.

(PLAN COMMISSION RECOMMENDS A POSITIVE VOTE)

!

FILED APR 1 0 2002

i

:

i

i

!

i

i

i
i

f'.

t1

MEMORANDUM

TO:

The Alton Plan Commission

FROM:

Philip S. Roggio, Director of Development & Housing

DATE:

June 24, 2003

RE:

Preliminary plat of lal Addition, Brandon Estates Subdivision.

Preliminary Plat Requirements:
!

All of the preliminary plat requirements as detailed in Section 12-2-4 of the Alton
City Code have been met with the exception of the following:
12-2-4(A): The plat was not supplied on dimensionally stable translucent drafting material.
Questions: Who completed the land survey for said subdivision? Who provided the legal
description that is on this plat?

k

\

Design Standards:
Streets:
,
What is the intended name of the street running north/south off of Culp Lane? Is this
street intended to be public or private?

i

Is Public Works satisfied with the specifications shown on the street cross-section for the
road base?
Blocks:
Has a minimum turning radius of 50 feet been achieved for the cul-de-sac (City will
require engineer’s certification with submittal of engineering plans)?
Public Grounds:
Will any public grounds be created by this plat?
i

Sidewalks:
Will the entire development be comprised of mobile homes?
Sanitary Sewers:
How will this be handled (private or public)?
C

>

✓

CITY OF ALTON
DEPARTMENT OF
BUILDING & ZONING

ILLINOIS

101 E. THIRD ST.
ROOM 202
ALTON, IL 62002

June 10, 2014
Michael Storey
1787 Storey Ln.
Alton IL 62002
Re: R-6 Mobile Home Park on Culp Lane in Alton IL
Mr. Storey,
Per the City of Alton Code, the property you own on Culp Lane is zoned R-6 and is eligible to be developed as
a Mobile Home Park. The following are requirements that must be fulfilled in order to accomplish this*
11-5-6: R-6, MANUFACTURED HOME RESIDENTIAL DISTRICT:
A. Purpose: The purpose of the R-6, manufactured home residential district, is to provide areas for
manufactured home residential development in appropriate areas of the city while ensuring superior design and
a harmonious blending with surrounding land uses. It is further intended to provide for other uses which are
customarily found with and are not detrimental to manufactured homes. The R-6 district may be considered
consistent with provisions of the comprehensive plan for land designated as general residential on the city’s
future land use map.
B. Classification of Manufactured Home Residential Districts:
2, Existing Undeveloped R-6 Areas: In areas of the city zoned R-6 on the effective date of this title but not vet
developed with infrastructure and manufactured homes, the following regulations shall apply:
a. All planned infrastructure improvements shall be built in accordance to the requirements specified in title 12.
"Subdivision Regulations", of this code. The submission of engineering plans, with fee, as stipulated in section
12- 1-7 of this code shall be required. A public hearing shall not be required ifa plat is not required, as
stipulated in section 12-2-1 of this code.
h Should a plat be required, all procedures and requirements listed in title 12 of this code shall be adhered to
in addition to those listed in this section.
c. A landscaped sti ip of land not less than ten feet (10') in width shall be established and maintained within the
manufactured home district along its exterior boundaries.

C. Permitted Uses: In the R-6 district, the following uses shall be permitted:
Residential uses 1. Manufactured homes.
F. Standards for Manufactured Home Parks:
I

1. Location Limitations: The installation of any new or additional manufactured home within the city shall be
limited to manufactured home parks that have been lawfully created.
2. Single Ownership: In order that the purpose of this district may be realized, the land and buildings and

appurtenant facilities shalTbc m sinnlcrowncrwVmy nr nuder the m-^na^cmcnt o~r supervision~Qfia central
(618) 463-3d32 • Fax (618) 463-0972 •

authority such as a homeowners' association, or otherwise subject to such supervisory lease of ownership
controUas may be necessary to carry out the provisions of this section.
3. Manufactured Homes Constitute Dwelling Units: All manufactured homes constitute dwelling units and ar*"~
such are subject to all inspections and regulations as stipulated in title 9. chapter 2 of this code.
4. Connection to Permanent Utilities: No manufactured home shall remain in a manufactured home district for a
period exceeding fifteen (15) days without connection to permanent utilities.
5. Compliance with State and Federal Regulations: All manufactured homes moved into the city after the
effective date hereof shall be constructed in compliance with specifications set forth by the National Fire
Protection Association under the association's code of specifications for mobile homes and travel trailers and all
applicable state and federal regulations.
6. Dangerous Manufactured Homes Prohibited: No manufactured home constructed prior to June 30, 1976, nor
any manufactured home not constructed in compliance with the federal "national manufactured housing
construction and safety standards act of 1974", nor any manufactured home which is deemed by the zoning
administrator to be a hazard to the public health or safety shall be moved into, erected or installed in the city.
7. Installation Criteria:
a. Each manufactured home space shall have a stand to provide adequate support for the placement and tie
down of the manufactured home. The stand shall extend the length of the supports of the manufactured home,
and shall consist of a four inch (4") thick reinforced concrete slab. (Ord. 6734, 6-11-2003)
b. Each manufactured home shall be anchored in a manner to meet or exceed the standards prescribed by the
federal department of housing and urban development and in accordance with section 9-2-20 of this code. (Ord.
6814, 6-9-2004)
c. No manufactured home shall be immobilized, but anchors capable of withstanding a vertical tension force of
four thousand eight hundred (4,800) pounds shall be installed at the comers of each stand or as otherwise
necessary for protection against high winds. Every manufactured home shall be securely tied down to such
anchors.
d. The minimum first floor elevation shall be at least eighteen inches (18"), but not more than thirty six inches
(36"), above the crown of the nearest street or road.
e. The frame, axles, wheels, crawl space storage area and utility connection of all manufactured homes shall be
concealed from view through the use of durable all weather materials manufactured specifically for the puipose
of covering the undercarriage area. Such skirting shall be fastened in accordance with manufacturer’s
instructions and shall provide for adequate ventilation.
f. All manufactured home spaces shall abut upon an all-weather surface driveway of not less than twenty one
feet (21 ’) in width, which shall have unobstructed access to a city street.
g. Manufactured homes may only be placed in designated and approved manufactured home parks.
Manufactured homes may not be placed in any zoning district other than the R-6, manufactured home
residential district.
h. To inhibit the spread of fire, no manufactured home shall be erected or placed within ten feet (10') of another
manufactured home.
G. Off Street Parking and Loading Requirements: 2 parking spaces per manufactured home will be required.

H. Dimensional Regulations:
Minimum lot area per family | 5,000 square feet (leased lot)

f

&

| 6,000 square feet (subdivided lot) |
Minimum lot or space width

50 feet (leased lot)

If

I 60 feet (subdivided lot)
20 feet (leased lot) i

Minimum front yard

25 feet (subdivided lot)
Minimum street side yard

4

s:

&

i

1

15 feet

Minimum side yard

5 feet

Minimum separation between
manufactured homes

10 feet

Minimum rear yard

20 feet (leased lot) i

l
rf

K
I
;
ft
K

\

h

\

£R

ft

!

25 feet (subdivided lot) 1

I

-I
f

Minimum setback from park
property line

25 feet

Maximum lot or space
coverage

60 percent

Maximum building height

2V2 stories or 35 feet

i

25 acres

g£

. Minimum district size

1

I
i

i
b>

1?

Note:
1

1. In cases where it is intended to install manufactured homes with a length greater than that allowed due to
the front and rear setback requirements, the plan commission may grant an exception to reduce the front
and rear yard setback requirements to not less than 10 feet each.
(Ord. 6734, 6-11-2003)

j

If you intend to divide the property into lots for individual sale, or intend to construct a public street and
have other public infrastructure on the property, a Plat will be required.
I am including City Code Sections 12-2-2 through 12-2-11 to facilitate your plat presentation. Please call for
your pre-plat presentation meeting to discuss the process with city representatives.
Sincerely,
-1

1

Michael A. Harvey ^
City of Alton IL
Life SafetyVBuilding Inspector
Building & Zoning Department

£

CITY OF ALTON
DEPARTMENT OF
BUILDING & ZONING

ILLINOIS

101 E. THIRD ST.
ROOM 202
ALTON, IL 62002
i

August 13, 2013
Michael Storey
1787 Storey Lane
Alton, IL 62002
Dear Michael Storey:
I have reviewed the sketch plan that you gave to me at our meeting on August 5, 2013, and, per Title 12,
Chapter 2, Section 2B of the City Code of the City of Alton, I request that the following changes be made
to the plan:
1. Please add a north arrow, graphic scale, and contour lines.
2. Please add the existing zoning of the property and of all land within one hundred feet (100’) of
the property boundary.
3. Please add the placement and availability of proposed gas, water, electricity, telecommunication
Imes, proposed storm and sanitary sewage systems, and pavement and right-of-way widths of the
proposed street.
4. Please provide a narrative or graphic presentation of proposed methods of handling stormwater
drainage and sanitary sewage.
5. Please include a site plan showing lots and blocks with numbers.
6. Please correct the ownership information of the northeast lot of the development, currently
identified as being owned by Kevin Powell.
While not required by the City Code of the City of Alton at this point of the development, the City also
requests the following information:
1. A proposed timeline for development of the subdivision
2. A description of the type(s) of residential structures planned for construction in this development
including price points.
’
3. A list of the proposed costs of the development, including sources of financing.

i

l

The City of Alton looks forward to working with you on the development of this subdivision.
If you have any questions on any of the above requests, please contact me at 463-3532.
Sincerely,
%

r

o-/

Matthew H. Asselmeief, MPA, AICP
Deputy Director of Development and Housing
i

(618) 463-3532 • Fax (618) 463-0972

Sterling Codifi ers, Inc.

http://www.sterlingcodifiers.conVcodebook/printnow.php

12-2-7: FINAL PLAT; WHERE FILED:

A. Upon meeting the conditions of chapter 3 of this title, the subdivider shall file an original
and five (5) copies of the final plat of the proposed subdivision, and all supporting
documents, with the city clerk. Such final plat shall be referred by the city council to the
plan commission. The plan commission shall consider the same upon the scheduling of
a public hearing by the department of public affairs. Furthermore, the final plat shall be
forwarded to all appropriate city departments for their review and comment prior to the
public hearing.

B. In addition, the following supporting documentation shall be submitted simultaneously to
the clerk:
1. A certificate from the county clerk of Madison County certifying that there are no
delinquent general taxes, unpaid current general taxes, delinquent special
assessments or unpaid current special assessments against the tract of land to be
subdivided. An accurate legal description needs to be included in the certificate.
2. A construction bond, if required.
3. The perpetual maintenance of any common areas shall be provided for by a declarant
legal entity. Prior to final approval of the subdivision, the plan commission must
approve the subdivider's selected method of perpetual maintenance. The subdivider
shall make no change in the approved method unless the plan commission and city
council approve. If a homeowners' association is to be formed, the articles of
incorporation must minimally contain the following provisions:
a. Legal description which geographically defines the area owned and controlled by
the homeowners' association.
b. That all owners of property within the development shall automatically become
members of the homeowners' association and shall be required to incur all costs
necessary to maintain any facility or common facility of the association. (Ord. 6104
12-18-1996)

i

11-2-2: DEFINITION OF TERMS
BUFFER: An area that contains extensive la ndscape material and/or a decorative wall or similar
material designed to screen from view a particular land use or activity.

LANDSCAPING: Trees, shrubbery and other plant materials arranged to beautify and/or screen from
view all or part of a premises.
2-10-6: POWERS AND DUTIES: ® ^The Commission shall have the following powers and duties:
C. To study exterior design drawings, landscape, and site plans and materials for any proposed public
improvement in said district, and to make recommendations to the City Council as to the architectural
or aesthetic aspects thereof.
E. Final Development Plan And Section Plans:
7) Concept landscape plan.

J1-5-6: R-6, MANUFACTURED HOME RESIDENTIAL DISTRICT:
2. Existing Undeveloped R-6 Areas: In areas of the city zoned R-6 on the effective date of this title but
not yet developed with infrastructure and manufactured homes, the following regulations shall apply:
a. All planned infrastructure improvements shall be built in accordance to the requirements specified in
title 12. "Subdivision Regulations", of this code. The submission of engineering plans, with fee, as
stipulated in section 12-1-7 of this code shall be required. A public hearing shall not be required if a plat
is not required, as stipulated in section 12-2-1 of this code.
b. Should a plat be required, all procedures and requirements listed in title 12 of this code shall be adhered
to in addition to those listed in this section.
c. A landscaped strip of land not less than ten feel (10') in width shall be established and maintained
within the manufactured home district along its exterior boundaries.

DEPARTMENT OF
DEVELOPMENT AND HOUSING

CITY OF ALTON
ILLINOIS

I

101 E. THIRD ST.
ROOM 202
ALTON, IL 62002

September 12, 2013
Michael Storey
1787 Storey Lane
Alton, IL 62002
Dear Michael Storey:
I have reviewed the sketch plan for the First Addition of Brandon Estates Subdivision that you delivered
to my office on August 21, 2013. This document was different from the one that you save to me at our
meeting on August 5, 2013.
Per Title 12, Chapter 2, Section 2B of the City Code of the City of Alton, I request that the following
“
changes be made to the plan:
1.
2.
3.
4.

Updated contour lines.
Please correct the legal description as it relates to Kevin Powell.
Please correct the description of Lot A to include the stormwater detention area.
The lot size square footage of the three (3) proposed lots does not add up to the total listed lot
size. Please explain.
5. Please indicate the owner(s) of the property identified by parcel ID number 19-1-08-04-00-000003.018, which is contiguous to the property.
^ Q^aSe correct t^ie ownership of the property identified by parcel ID number 19-1-08-03-00-0007. Please add the property' ownership information for the property identified as “Clover Leaf Golf
Course.”
8. Please correct the property ownership information for the property identified as “Brad
Sweetmen.”
9. Please correct the spelling of Cindy Jones’ name on the property immediately south of the
proposed subdivision.
10. Please add ownership and zoning information for the property identified bv parcel ID number 191-08-04-00-000-003.014, which is located within one hundred feet (100’) of the proposed
subdivision.
11. Will Lot 1 be served by a private sewer system?
12. Will Outlot A be served with utilities other than telephone service? If yes. please show the
proposed placement of utilities on the sketch plan.
1 j. Will any public streets be placed in the development? If yes, please indicate location and rwhtof-way width (s).
=
14. Please provide a narrative or graphic presentation of proposed methods of handling stormwater
drainage and sanitary sewage.

f

If it is your intent to develop this property as a mobile home park, then, per Title 11, Chapter 5, Section
6F2, please explain the management or homeowners’ association that will be responsible for the upkeep
of the land, buildings, and appurtenant facilities.
While not required by the City Code of the City of Alton at this point of the development, the City also
requests the following information:
1. A proposed timeline for development of the subdivision
2. A description of the type(s) of residential structures planned for construction in this development,
including price points.
3. A list of the proposed costs of the development, including sources of financing.
Please provide me any and all information in writing.
The City of Alton looks forward to working with you on the development of this subdivision.
If you have any questions on any of the above requests, please contact me at 463-3532.
Sincerely,

Matthew H. Asselmeier, MPA, AJCP
Deputy Director of Development and Housing

ALTON PLAN COMMISSION MINUTES
CITY COUNCIL CHAMBERS
AUGUST 29, 2000 -1:15 p.m.
(As unapproved by the Plan Commission)
PRESENT: Made Hackworth, John Rain, DeLoyce McMurray, Bill Stoutenbrough, Joe Blair, Barry Clayton, Anne
Doucleff, Gil Moody
ABSENT: Sam Gomer, Mary Eckhouse
OTHERS PRESENT: Phil Roggio (Director of Business and Economic Development), Jim Schrempf (Corporation
Counselor), Jim Hernandez (Director of Public Works), Aldermen Hoechst, Hanrahan, Maher, Young, Brake, and
Loy, and Micky Jones (Secretary)
Chairman Hackworth called the meeting to order and asked for a roll call. Roll call was taken with 8 present and 2
absent. Motion was made by DeLoyce McMurray and seconded by Joe Blair to approve the minutes of the regular
meeting of August 8,2000. Vote was 8 - 0 in favor.
The City Council referred the petition of Mike Storey for Brandon Estates Subdivision back to the Plan Commission
for further clarification from Jim Schrempf. Jim explained to the Plan Commission what was explained to the City
Council at the council meeting on August 23:
> Discussed zoning laws and powers.
> Point begins with discretionary zoning and ministerial acts.
> Rezoning is a legislative act - own judgement - welfare of community - granted great discretion pertaining to
traffic, safety, community, etc.
> Administrative review - set forth criteria in zoning ordinance that has been adopted - see if plat meets criteria.
> If a variance is needed, it becomes a discretionary act. Where no variance is needed, it becomes a ministerial act.
When not approved, the case can go to court with a review limited so “did the plan meet the requirements of
existing ordinances”.
Jim Schrempf stated that Phil Roggio stated Public Works could not find any criteria that the plat foils to meet the
ordinances of the City of Alton.
Jim Schrempf stated the city administration had many concerns over this development and have not always supported
Mr. Storey’s efforts. This is a very expensive proposal including the retaining wall and sidewalks. All requirements
have been met by the submitted design. There has been talk that Mr. Storey may not comply with the design, but
legally the plat can not be turned down for that reason. Jim stated on the final plat we have the ability to assure all
improvements are met. If they are not met when filial plat is submitted, a bond would be required to assure
compliance. Then the bond is in place if the city needs to use it to finish the improvements.
Ann Doucleff asked a question regarding the pre-annexation agreement. Jim stated all the property came into the
city with an R-6 zoning classification. The city did not have R-6 (Mobile Home Park) at that time, so it was adopted.
In the agreement, it stated they had the right to divide and sell. The city reviewed the pre-annexation agreement in the
spring and it was decided the 25- lot development could proceed if they so choose despite R-6 minimum 25 acre
requirement.
DeLoyce McMurray was concerned that the wall would not be constructed. Jim stated the city would require the
wall before selling any lots, or require a bond to cover cost of the city constructing the wall as shown.
Chairman Hackworth read the letter from Jim Hernandez to Mike Storey regarding the removal of the catch basin
and the adjacent pipe. Mr. Hernandez stated the catch basin was gone, the pipe sealed, and approved by Public
Works. Mark stated the city officials have reviewed this development very closely and found no restrictions to stop
approval of preliminary plat.

Those in audience:
> Alderman Loy questioned the catch basin and the drain pipe not being on the plat. Jim Schrempf stated the
requirements on the preliminary plat must be met when finished.
> Mary Porter stated last spring she saw in the legal section of the Telegraph that the city passed a law that no
continuing lock-in fence be allowed and no fence allowed over 6 feet tall.
> Alderman Young stated the reason the request was referred back to Plan Commission was because council has
no legal way to deny the request. If the Plan Commission has any questions in their mind, take the time to
approve or disapprove.
Jim Schrempf stated he has represented John and Rosemary Storey in the past, but has never represented Mike
Storey. Attorney Chris Hunter is representing Mike Storey and was present.
Alderman Hanrahan stated the retaining wall must be designed by a structural engineer. Chairman Hackworth said
the structural engineer would be required and was so stated in the last minutes.
Jim Schrempf asked Chris Hunter if the retaining wall would be designed by a structural engineer? He stated yes.
Discussion incurred concerning the maintenance of the wall and the fence. Phil Roggio stated if the wall was in bad
condition, it would be condemned like a building. It must be properly designed and treated as a structure. Jim stated
the city is provided with immunities from liability in connection with approving plans where injuries later occur as a
result of a development.
Jim Schrempf stated he was not here as a lobbyist. The Plan Commission says yea or nay. He is just sharing
information as an attorney. The Plan Commission is always respected by the administration and (will be no matter
was their decision is).
Motion was made by Joe Blair and seconded by DeLoyce McMurray for approval of a preliminary plat for Brandon
Estates Subdivision, located in the northwest one-quarter of Section 3, Township 5 North, Range 9 West of the Third
Principal Meridian, Alton, Illinois, with retaining wall designed by a structural engineer.
Vote was:
Positive - Mark Hackworth, DeLoyce McMurray, Joe Blair, Barry Clayton (4)
Negative - John Rain, Bill Stoutenborough, Anne Doucleff, Gil Moody (4)
Motion was made by Bill Stoutenborough and seconded by Barry Clayton for approval of a preliminary
plat for Brandon Estates Subdivision, located in the northwest one-quarter of Section 3, Township 5
North, Range 9 West of the Third Principal Meridian, Alton, Illinois, with retaining wall designed by a
structural engineer on further conditions and Public Works and Housing Department investigate and report
to council prior to their vote as to whether the retaining wall proposed violates any ordinance or regulation
prohibiting a “solid” fence which prevents air flow between properties.
Vote was 8 to 0 in favor.
Adjourned 2:10 p.m

Russ Gossard and Greg Harris petitioned the Alton City Council to rezone from R-2 to C-2 on the property at
1900 Washington for seasonal outdoor produce sales.
Chairman Hackworth excused himself from the chair due to a conflict. DeLoyce McMurray chaired the meeting.
Those in audience in favor - None.
Those in audience in opposition:
^ Kenneth Porter, 1906 Washington, commercial property too close to residential which makes their property
values go down.

> Jeff Wiegand, 2415 Judson, submitted petition with 30 signatures of homeowners in area who oppose the C-2
zoning.
> Alderman Brake stated he has copies of the two letters and 30 signatures who oppose the rezoning.
Phil Roggio’s memorandum was discussed, see attached.
Russ Gossard and Greg Harris were not present for hearing.
Motion was made by Bill Stoutenborough and seconded by Bany Clayton to rezone from R-2 (One-Family
Residential) to C-2 (General Commercial) on the property identified by permanent parcel number 23-2-08-07-06101-023, Section 7, Township 5 North, Range 9 West of the Third Principal Meridian, also known as 1900
Washington, Alton, Illinois, for seasonal outdoor produce sales.
Vote was 0 to 8 in opposition
Ayes - 0
Nays - 8
Adjourned 2:15
Attachments
i

i

i

\

i

i

i

i

Q~~^j:J'0N' DEPARTMENT OF BUILDINO * 7n,vn^
APPLICATION FOR RESIDENTIAL OCCUPANCY PERMIT
ADDRESS: 3622 CULP LN
OCCUPANT FULL NAME: EVELAND-ADELINE M
OCCUPANT DL# OR SS#:
321207097
CURRENT ADDRESS: INSPECTED APRIL 7 2003
PHONE:
OWNER NAME: STOREY-MJCHAEL & VICKIE
OWNER ADDRESS: 17S7 STOREY LN
PHONE:

INSPECTION FEE:
WARD #:
TYPE OF STRUCTURE-

OWNER DL# OR SS#:
OWNER AGENT: STOREY-MICHAEL & VICKIE .STOREY-MICHAEL & VIC

□ SING. □ DUPL. □ MULTI
CONSTRUCTION■

AGENT ADDRESS: 1787 STOREY LN ALTON IL 62002
PHONE:

□ BRICK □ SIDING:
(WOOD, VINYL, ALUM., OTHER)

PERMIT NO.: 07020165
DATE: 06/25/2012
INSPECTION DATE & TIME-

#FLOORS: □ 1 □ 1 Vi □ 2 □ 2 Vi □ 3
DIR- FACING: □ N □ S □ ED W
MAXIMUM OCCUPANCY:
FULL NAMEfS), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME
EVELAND-ADELINE M
EVE!,AND-PERRY L

CODE INSPECTOR:

NOTE:

DL#

/ SS#

D.O.B.

/ 321207097
/ 480646818

01/18/1525
08/27/1550

OWNER:

The owner and/or agent listed on this application
MUST BE PRESENT for the inspection.

I

PERMITS NOT ISSUED WITHIN 120 DAYS ARE VOID
NO EXCEPTIONS!!!

9

CTIY OF ALTON. DEPARTMENT OF BUILDING &■ ZONING
APPLICATION FOR RESIDENTIAL OCCUPANCY PERMIT
ADDRESS:
3622 Culp Ln.____________________
OCCUPANT FULL NAME:
Adeline M. & Perry L. Eveland
OCCUPANT DL# OR SS#: 321-20-7097 dob/011825
CURRENT ADDRESS:
PHONE _____________
____
OWNER NAME- Mike Storey"
OWNER ADDRESS: _ 1787 Sforpy T,N.. Alton
PHONE 46S-7S96
OWNER DL# OR SS#:
OWNER AGENT:

i

2772 1

PERMIT NO.:
DATE: 4/1/03
_
INSPECTION DATE & TIME:
4/7/03 Mon. 3:15
INSPECTION FEE
$20.00
WARD #■• 1
2
3
4
5

6

type of Structure:
glSlNG. □ DUPL. □ MULTI
CONSTRUCTION:

AGENT ADDRESS:
PHONE ______

□

bric:

(W<

G:
UM., OTHER)

#FLOORS: 01 □ 1 Vi

□ 3

DIR. FACING: DN01D ED W
MAXIMUM OCCUPANCY:
TJLL NAME(S), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:

)
•)
)
)

FULL NAME
Perrv L. Eveland

DL#/SS#
480-64-6818

D.O.B.
082750

)
r

'WNER OR AGENT SIGNATURE:
ODE INSPECTOR:

JOTE:

7

!
%

Ron A 1 Hridop

The owner and/ or agent listed on this application
MUST BE PRESENT for the inspection.
NO EXCEPTIONS!!!

i

(618) 463-3532 ® Fax (618) 463-0972

i

I

CITY OF ALTON, DEPARTMENT OF BUILDING & ZONING
APPLICATION FOR RESIDENTIAL OCCUPANCY PERMIT
ADDRESS: 3622 CULP LN
OCCUPANT FULL NAME: EVELAND ADELINE M
OCCUPANT DL# OR ID#:
CURRENT ADDRESS: INSPECTED APRIL 7, 2003
PHONE:
OWNER NAME: HENRY RICHARD
OWNER ADDRESS: 3622 CULP LN
PHONE:

PERMIT NO.: 07020165
DATE: 06/25/2012
INSPECTION DATE & TIME:
INSPECTION FEE:
WARD #:
TYPE OF STRUCTURE:
□ SING. □ DUPL, □ MULTI
CONSTRUCTION:

OWNER DL# OR ID#:
OWNER AGENT: HENRY RICHARD ,HENRY RICHARD

□ BRICK □ SIDING □ EIFS
(WOOD, VINYL, ALUM., OTHER)

AGENT ADDRESS: 3622 CULP LN ALTON, IL 62002-7373
PHONE:

^FLOORS: DID 1 % □ 2 □ 2 % □ 3
USE: □ RENTAL □ OWNER OCC
DIR. FACING: □ N □ S □ ED W
MAXIMUM OCCUPANCY: ______

FULL NAME(S), DL#/ID#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME
EVELAND ADELINE M
EVELAND PERRY L

i

DL#

CODE INSPECTOR:.

D.O.B.

l ID#
/
A

OWNER:

NOTE: The owner and/ or agent listed on this application must be present for
the Inspection. In case of cancellation, a 24hr notice is required or there will be
a $35.00 charge. Also there is a $35.00 fee for a reinspection.
PERMITS NOT ISSUED WITHIN 120 DAYS ARE VOID
NO EXCEPTIONS!!!
i

BEDROOM SIZES

HEATING

#1

X

Location:

Floor:

Occ:

#2

X

Location:

Floor:

Occ:

CO DET. PRESENT:

YES

#3

X

Location:

Floor:

OCC:

CO TEST:

FAIL

#4

X

Location:

Floor:

Occ:

HEAT:

AIR

WATER

#5

X

Location:

Floor:

Occ:

FUEL:

GAS

ELECTRIC

EMERGENCY EXITS:
BATHROOMS:

FULL

MAXIMUM OCCUPANTS:
ADDITIONAL NOTES:

i

i

i

DWELLING AIL ELECTRIC; NO CO ALARM REQUIRED:
PASS

NO
NO TEST
STEAM
OIL

ELECTRIC

ELECTRICAL SERVICE AMPERAGE:
HALF

3/4

Breaker

Fuse

Attached Garage: YES

NO

i

*. c

CITY OF ALTON. DEPARTMENT OF BUILDING & ZONING
APPLICATION FOR RESIDENTIAL-OCCUPANCY PERMIT
i

PERMIT NO.: 12010006
DATE: 01/03/2012
INSPECTION DATE & TIME:

ADDRESS: 3630 CULP LN
SEE BELOW
OCCUPANT FULL NAME:
OCCUPANT DL# OR SS#:
CURRENT ADDRESS:
PHONE:
OWNER NAME: ROEMER-CLAUD R & NANCY S
OWNER ADDRESS: 824 WASHINGTON, MG
PHONE: 6182143164

fhij **—fr — 'i n
INSPECTION FEE: $30.00
WARD#:
TYPE OF STRUCTURE:
^SING. □ DUPL. □ MULTI
CONSTRUCTION:

OWNER DL# OR SS#:
OWNER AGENT: ROEMER-CLAUD R Sz NANCY S,ROEMER-CLAUD R & NAN

v

□ BRIC
'ING:
{WOOD^VINYLALUM., OTHER)
#FIOORSn5Tc] 1 Vi □ 2 □ 2 Vz □ 3
S

AGENT ADDRESS: 824 WASHINGTON, MG ALTON, IL 62002
PHONE:

DIR. FACTNG^N □ S □ ED W
MAXIMUM CTCCUPANCY: ^h
FULL NAME(S), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME

CODE INSPECTOR:

NOTE:

DL#
/ SS#
D.O.B.
ROEMER-CLAUD R, DOB 06-08-41, 5601-1641-163R (ID)
ROEMER-NANCY S, DOB 05-04-41, R560-6374-1728

NO

SHAW

OWNER: /

7

The owner and/or agent listed on this application
MUST BE PRESENT for the inspection.
PERMITS NOT ISSUED WITHIN 120 DAYS ARE VOID
NO EXCEPTIONS!!!

jBEDROOM SIZES

HEATING

ai 10s
#2 |Z8

x ep
X fp

Location:
Location: /ST

Occ: 2

DWELLING ALL ELECTRLClNO CO ALARM REQUIRED:
CO PET. PRESENT: ( YEs/j NO
~

S3

X

Location:

Occ:

CO TEST:

PASS

FAIL

#4

X

Location:

Occ:

HEAT:/"AIR, )

WATER

#5

X

Location:

Occ:

FUEL:

ELECTRIC

EMERGENCY EXIT5: ZBATHROOMS:

("fUU>}

MAXIMUM OCCUPANTS:

HALF

3/4

FTAt Occ: 2

/no test))
3! LAM

'

ELECTRIC

OIL

EJ^gFRjCAL SERVICE AMPERAGE: 2~CO
Breaker^
Fuse

cortex RMAm&m

ADDITIONAL NOTES:

!

J. Vi C'-V'cT

'7/&//^

city of Alton, department of ruuding & zoning
—"-'-/YFRUICATiON^TUltRE^WENTIAL OCCUPANCY PERMIT
^HkESS: 3622 CULP LN
■tUPANT FULL NAME:
RCUPANT DL# OR SS#:

:

PERMIT NO.: 12060288
DATE: 06/26/2012
INSPECTION DATE & TIME:
6/28/12 3:15
INSPECTION FEE: $30.00
WARD if:
TYPE OF STRUCTURE:
:/^SING..a-DUPL^a-MULTI

Current address:
PHONE:
OWNER NAME: EVELAND-JAMES
OWNER ADDRESS: 39 MATHER ST
PHONE: 467 7011
OWNER DL# OR SS#:"
OWNER AGENT: EVELAND-JAMES,EVELAND-JAMES

CONSTRUCTION:
c

□ BRICK^JiIDING:
(WOOD(viNYL>LUM., OTHER)

AGENT ADDRESS: 39 MATHER ST ALTON, IL 62002
PHONE:

ffFLOORS:

□ 1 Vz □ 2 □ 2 Vi □ 3

DIR. FACING:□ ED W
__________S
MAXIMUM OCCUPANCY:
FULL NAME(S), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME

DL#

/ SS# •

D.O.B.

* NO OTHER TENANTS *

1
/

\4 syo 7VVS" {JOGQ>

'■

V L OvC

:ODE INSPECTOR:

SJOTE:

SHAW

OWNER:

7

The owner and/or agent listed on this application
MUST BE PRESENT for the inspection.
PERMITS NOT ISSUED WITHIN 120 DAYS ARE VOID
NO EXCEPTIONS!!!

EDROOM SIZES

i 1 o10
3
Z

HEATING

x “7ft

Location: |*T

x y

Location:
PLR. Occ: 2Location: [ST Pofi- Occ: a

X

10

X
X

UERGENCY EXITS: Z
ATHROOMS:

Location:
Location:
HALF

Occ: |

Occ:
Occ:

DDITIONAL NOTES:
in

CO TEST:

"FAIL

heat^air/1 water
FUEL: Cstjj ELECTRIC

(NQTESt/
s1*Cam
OIL

ELECTRICAL SERVICE AMPERAGE: ) rC
(BreakerJ
Fuse

3/4

IAX1MUM OCCUPANTS:^

1K)STML 6MO(L5

DWELLING ALL ELECTRIC; NO CO ALARM REQUIRED:
CO PET. PRESENT: ( TeTJ NQ^

B

tMSTACU CO ATATLtn QM bAOL STlL 0{C- TZML&H
lOf-TM/M 1S( OF {Sj^bCtOUMS ,

ELECTRIC

^

CITY
, rr2^m^Jmim!m2EMLlLDiNG & ZONING
APPLICATION FSMRESIPENTIALOcF^A Nrv pfp
ADDRESS: 3630 CULP LN
OCCUPANT FULL NAME:
OCCUPANT DL# OR ID#:
CURRENT ADDRESSPHONE:
OWNER NAME: ROEMER CLAUD R fc NANCY S

PERMIT NO.: 14090291
DATE: 09/1S/2014
INSPECTION DATE & TIME:
9/19/14 10:45
INSPECTION FEE:
S30.00
WARD #:
TYPE OFSTRUCTLTRF■
^ SING. □ DUPL. □ MULTI

P°HONNER 4«SfS: 1210 PRHS LK' ^ ALT0N IL ^
OWNER DL# OR ID#:
OWNER AGENT: ROEMER CLAUD R & NANCY S ,ROEMER CLAUD R & NAN

CONSTRUCTION•
□ BRICK

AGENT ADDRESS: 1210 PREIS LN APT 1 ALTON, IL 62002
PHONE: (

.ding □ EIFS

(wood,AtnyLj^LUM., OTHER)
jtFLQORS: WLO 1 M □ 2 □ 2 V2 □ 3
USE: □ RENTAL p OWNER OCC
DIE- FACWG:'%X;N □ S □ E □
MAXIMUM OCCUPANCY:

FULL NAME(S), DL#/ID#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME
* NO OTHER TENANTS *

• CODE INSPECTOR:

DL#

SHAW

/ ID#

OWNER:

W

D.O.B.

y’

// S?

\C
/

Ls

/

,/i
is

Ato 4/

/

/raz

NOTE: The owner and/or agent listed on this application
must be present for
.he Inspection. In case of cancellation, a 24hr notice i
_ is required or there will be
\ $35.00 charge.__Also there is a $35.00 fee for
PERMITS NOT ISSUED WITHINIMD^Xrt yOID
SEDROOM SI7FS

1

L_lVaW
3
4

______________ NO EXCEPTIONS!!!

X Cf ^ Location: fsfc !r?\oor.
X //^Location: fi-iUloor:
X
Location:
Floor: 1
X
Location:
Floor:
X

MERGENCY EXITS:
4THROQMS:

Location:
'

/FULLyO_.HALF

iAXIMUM OCCUPANTS:
3DITIQNAL NOTES:

Floor:

a

3/4

1 S 7*7W

^

— nrr "A
Occ
Occ
Occ

HEATING
DWELLING ALL ELECTRIC; NO CO ALARM REQUIRED'
CO PET. PRESENT: ,YES"A NO
CO TEST: PASS
fail
/no TEST
HEAT:
FUEL:

lAIRN

WATER

^ELECTRIC

STEAM

ELECTRICAL SERVICE AMPERAGE:
^reTRe?^.
Fuse
Attached Garage: YES

ELECTRIC

OIL
~)
—
/’’NO

C <4

A.

i

CITY OF ALTON
DEPARTMENT OF BUILDING & ZONING'
- ,101E. Third Streep Suite 204
Alton, Illinois 62002
Fh.: 61^463-3532 Fax: 618/4634)972
BUILDING PERMIT APPLICATION
DATE:
ADDRESS:
/V /Cb f\e~L

OWNER:
Add/Ph/Fax

J? .

T0tf*.y
7

tstc l<t & •£>

/f, 5~r&/f,*ry

CONTRACTOR:
Add/Ph/Fax

^ J/=\

ARCHITECT:
Add/Ph/Fax
ELECTRICIAN:
Add/Ph/Fax

V/*
7

^LUMBER:
Add/Ph/Fax

A7/3
7

ROOFER:
Add/Ph/Fax

7

Cfifi A£ e

r-ff^Tr.

TYPE OF CONSTRUCTION:

AT" A

rt~&

A-

J-aT^K CioT^~
t

COST OF WORK:

$

/ GpO

1/we hereby agree to perform the above described work in accordance with the plat, building plans &
specifications submitted along with this application, and in strict compliance with all provisions of the
zoning ordinance, building code & health regulations of the City of Alton. THinnis.
CONTRACTOR/OWNER:
TUILDING PERMIT #:
/

'^T -*V

-B FED $

iOjL^Je

APPROVED BY:
(CODE INSPECTOR

•JUL—01-2002

16:15

HfiBISON COUNTY

618 692 8982

P.02

Madison county
PLANNING AND DEVELOPMENT DEPARTMENT
MADISON COCJNTyADMINISTRA TION BUILDING
157 NORTH MAIN STREET, SUITE 254 EDWARDSBLLB, IL 62025-1964
PHONE (61S) 692-7040 EXT. 4460
JOSEPHD. PARENTS, ADMIN1STPA TOR

PERMIT AUTHORIZATION
PERMIT NUMBER: BQ2-0772
911 ADDRESS; 3630 CULP LN ALTN
PARCEL NUMBER{S): 23-1-08-03-00-000-006.0(15
APPLICANT: STORMER TIMOTHY
VALUATION: 53,000.00
date issued; 00/24/2002
DESCRIPTION: install white water system for a new maul, home in the city of alton
AUTHORIZATION IS HEREBY GRANTED TO THE CONTRACTOR HIRED BY/OR:
TO: STOREY MICHAEL R
AT:

THIS PERMIT IS GRANTED UPON EXPRESS CONDITION THAT THE CONTRACTOR HIRED BY/OR STOREY MICHAEL
R AGREES TO COMPLY WITH THE RULES AND SHALL BE LOCATED IN ACCORDANCE WITH THE ABOVE
DESCRIPTION. IN ADDITION, THE FOLLOWING CONDITIONS ARE HEREBY MADE PART OF THIS PERMIT:
1: This permit is subject to all codes and regulations found in flic Madison County Building Code and Zoning Ordinance.
APPROVED

s\

OFFICIAL OF MADISON COUNTY *

e

BUILDING INSPECTIONS PROCEDURE
All bearers of Building Permits are required to give this office forty-eight (4S) hours advance notice with regards to the following
inspection sequence.
The inspections listed below are mandatory and ranst be separate and in the sequence a? listed bleow. The only variation is in
inspection 9 and 10 which may be made before inspection R, if requested by die applicant. All footings must be inspected before the
foundation wall is erected.
Failure to following these requirements will result in the permit being suspended and resulting legal actions until the building code is
complied with in its entirety.
1. Footing Forms
JA. Poured Footings
2. Foundation
3. Rough. Framing
4. Rough Wiring
L Plumbing in Existence
». Under Floor Plumbing in Existence

7. Sewage Disposal System
8. Electrical Hook-up
9. Lath-Before Plaster is Applied
and Painted
10. Drywall
11. Final - Before Building is
Used or Occupied

i you were required to apply for an erosion and sediment control permit, you must notify the Planning and Development Department
t least 43 hours prior to the commencement of grading and wjthing two working days after completing the various construction stages
»ted til the ercssion/sediment permit,
OTE-* Demolition Permits are required for all structures that are removed. Landfill Receipts must be submitted to the Department
r all waste removed from the site including demolition debris prior to tlie final inspection 2nd occupancy permit being issued.
US PERMIT EXPIRES ONE YEAR FROM 06/24/2002

87-S1-02

15:06

RECEIVED FROM:618 692 8982

!!
;

CITY OF ALTON, DEPARTMENT OF BUILDING & ZONING
APPLICATION FOR RESIDENTIAL OCCUPANCY PERMIT
DDRESS:
3630 Culp Lane
Kevin Ted Powell
OCCUPANT FULL NAME:
OCCUPANT DL# OR SS#-. H1180-L9003
CURRENT ADDRESS:
Sr T.m i i e;
32 ChiejLLaiil
PHONE:
i- o 1 1 A1S-5«n-Pfi?5
OWNER NAME:
Mike Scorev
OWNER ADDRESS: 1787 Storey Lane, Alton
463-7576
PHONE:

PERMIT NO.:
DATE:

2 60 /8

7/17 /0 7

INSPECTION DATE & TIME:
MO. to Id address)

7/17/07______________________

INSPECTION FEE:
WARD #: 1
2
3

S20.00
4
5

6

TYPE OF STRUCTURE:

OWNER DL* OR SS#:
OWNER AGENT:

0 SING. □ DUPL. □ MULTI
CONSTRUCTION:

AGENT ADDRESS:
PHONE:

□ BRICK O'SIDING:
(WOOD, VINYL, ALUM., OTHER)
^FLOORS: ETl □ 1 Vz □ 2 □ 2 Vt O 3
DIR. FACING: □ N □ S □ E0 W
MAXIMUM OCCUPANCY:
^

FULLNAME(S), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:

1)

FULL NAME
Kevin only

DL#/SS#

D.O.B.
1 / i{ i ^ o

2)
3)
4)
5)
6)
7)

OWNER OR AGENT SIGNATURE:
CODE INSPECTOR:

NOTE:

Doug waggoner

The owner and/or agent listed on this application
MUST BE PRESENT for the inspection.

CUY OF ALTON, DEPARTMENT OF BUILDING & ZONING
APPLICATION FOR RESIDENTIAL OCCUPANCY PERMIT
3622 Culp Liu
A^^RESS:
JPANT FULL NAME: Adeline M. & Perry L. Eveland
OCCUPANT DL# OR SS* 321^20-7097 dob/011825
CURRENT ADDRESS:
~™
PHONE: _______
~
'—
OWNER NAME Mik^ .qt-nrpv________
OWNER ADDRESS:
1 7ft7 Sfnrpv T.W
AT ton
PHONE: 46S-757A
____
OWNER DL# OR SS#:
OWNER AGENT:

2 772 1

PERMIT NO.:
DATE: 4/1/03
INSPECTION DATE & TIME:'
4/7/03 Mon, 3:15
INSPECTION FEE
$20.00
WARD #: 1
2
3
4
5

6

TYPE OF'STRUCTURE:
gLSlNG. a DUPL. □ MULTI
CONSTRUCTION:

AGENT ADDRESS:
PHONE: ____

□ BRICK^ffiDING:
;UM.( OTHER)

(W(

XFLbORS:

□ 1 Vi

O 3

DIR. FACING: DNS'S □ ED \V
MAXIMUM OCCUPANCY:
ULL NAME(S), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:

)

FULL NAME
Perrv L. Eveland

DL#/SS#
480-64-6818

D.O.B.
082750

i
i

;

V
/
WNER OR AGENT SIGNATURE:
ODE INSPECTOR:

/y

/

>J

Ron Aldm'dgp.

:

TOTE:

The owner and/or agent listed on this application
MUST BE PRESENT for the inspection.
NO EXCEPTIONS!!!

(618) 463-3532 • Fax (618) 463-0972

7

y

I

CITY OF ALTON, ILLINOIS
DEPARTMENT OF BUILDING AND ZONING

BUILDING PERMIT
PERMIT NO. 03100099

i

DATE: 10/08/2003

This Permit Conveys no right to occupy any Street, Alley, or
Sidewalk, or any part thereof either temporarily or permanently.
THE CITY OF ALTON HEREBY GRANTS PERMISSION TO:
HENRY RICHARD
DESCRIPTION OF WORK: CONSTRUCT 20' X 22' WOOD FRAME DETACHED GARAGE

LOCATED AT: 3622 CULP LN
i

LOT NO:
SUBD:

;

)

BLK:
PARCEL NO: 23-2-08-03-00-000-007

This permit is granted on the express condition that the said construction shall in all respects, conform to
the Ordinances of the City of Alton, regulating zoning and construction of buildings, and may be revoked at
any time upon the violation of any of the provisions of said ordinances.

Est. Cost: $

5000

Fee:

$30.00

OWNER: HENRY RICHARD
ADDRESS: 3622 CULP LN
City Treasurer
PHONE: 465-7526
ARCHITECT:
r

CONTRACTOR: OWNER
WAr.mMFi?

PHONE:

Code Inspector

i

THIS PERMIT MUST BE DISPLAYED IN A
WINDOW THAT IS VISIBLE FROM THE
STREET.

i

PERMIT EXPIRES 9 MONTHS FROM
ISSUE DATE!
i, r
G

CITY or ALTON, DEPARTMENT OF BUILDING & ZONING
APPLICATION FOR RFS1DENT1ALDCCUPANCY PERMIT
PERMIT NO.: 12030006
DATE: 01/03/2012
INSPECTION DATE & TIME:

\DDRESS: 3630 CULP LN
SEE BELOW
JCCUPAJSiT FULL NAME:
OCCUPANT DL# OR SS#:
CURRENT ADDRESS:
PHONE:
OWNER NAME: ROEMER-CLAUD R & NANCY S
OWNER ADDRESS: 824 WAS! HNGTON, MG
PHONE: 61S2143164

T InlU---

* - ^ /A
i

r

INSPECTION FEE: $30.00
WARD it:
TYPE OF STRUCTURE:
^SING. □ DUPL. □ MULTI
CONSTRUCTION:

OWNER DC# OR SS#:
OWNER AGENT: ROEMER-CLAUD R & NANCY S ROEMER-CLAUD R & NAN

□ BRICK^SI^iNG:
(W001\V]NYL^.LUM., OTHER)
UFLOOliS^Th 11 Vi □ 2 □ 2 Vz □ 3

AGENT ADDRESS: 824 WASHINGTON, MG ALTON, IL 62002
PHONE:

DIR. FACING: HN □ S d E
MAXIMUM OCCUPANCY:
FULL NAM E(S), DL#/SS#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME

xxhjcbck Kzmmmx

CODE INSPECTOR:

D.O.B.
DL#
/ SS#
ROEMER-CLAUD R, DOB 06-08-41, 5601-1641-163R (ID)
ROEMER-NANCY S, DOB 05-04-41, R560-6374-1728

SHAW

OWNER:

The owner and/or agent listed on this application
MUST BE PRESENT for the inspection.

NOTE:

PERMITS NOT ISSUED WITHIN 120 DAYS ARE VOID
NO EXCEPTIONS!!!
BEDROOM SIZES
10s

X ep

(heating

#2 j is

*

#3
#4
#5

X

Location:
f^(Z Occ: 2
Location: /ST
Qcc: 2
Location:
Occ:

X

Location:

Occ:

X

Location:

iH£AT:C^K ^ water

Occ:

jFUEL: pi

EMERGENCY EXITS: 2
BATHROOMS:

(" FULL) j

r/i AX I MUMP CCUPANTS:

(DWELLING ALL ELECTgtt^NO CO ALARM REQUIRED:
jCO PET. PRESENT: (.YEsT? NO

|CO TEST:

PASS

FAIL
ELECTRIC

ELECTRIC

OIL

(ELECTRICAL SERVICE AMPERAGE: 2-CO
HALF

5/4

K. Breaker^

Fuse

goru-fc

ADD1T1QNAL NOTES:

1$

V

t

A

W

CITY OF ALTON. DEPARTMENT Of BUILDING & ZONING
APPLICATION FOR RESIDENTIAL OCCUPANCY PERMIT
ADDRESS: 3622 CULP LN ____ ___________ __
OCCUPANT FULL NAME
OCCUPANT DL# OR
CURRENT ADDRESS:
PHONE:
___________

DATE: 06/26/2012
INSPECTION DATE & TIME:
6/28/12 3:15
INSPECTION FEE: $65.00
WARD #;

OWNER NAME: 0KKUBUUBBBB
OWNER ADDRESS:’3622 CULP LN
PHONE:
__
OWNER DL# OR ID#:
OWNER AGENT: HENRY RICHARD, HENRY RICHARD
AGENT ADDRESS: 3622 CULP LN ALTON, IL 62002-7373
PHONE:,

l
l

FULL NAME(S), DL#/ID#, D.O.B. OF OTHER OCCUPANTS:
FULL NAME

DL#

/ ID#

D.O.B.

HENRY RICHARD DEAN
LEWIS KATHERINE

CODE INSPECTOR:

1
^
i
i

SHAW

NOTE: The owner and/or agent listed on this application must be present for
the Inspection. In case of cancellation, a 24hr notice is required or there will be
a $35.00 charge. Also there is a $35.00 fee for a reinspection.
PERMITS NOT ISSUED WITHIN 120 DAYS ARE VOID
NO EXCEPTIONS!!!
THE ELECTRICAL PANEL COVER MUST BE
REMOVED FOR THE INSPECTOR.

| EXHIBIT _

■ n
V /

✓*

CITY OF ALTON, ILLINOIS
DEPARTMENT OF BUILDING AND ZONING

BUILDING PERMIT
PERMIT NO. 15090137

DATE: 09/14/2015

This Permit Conveys no right to occupy any Street, Alley, or
Sidewalk, or any part thereof either temporarily or permanently.
THE CITY OF ALTON HEREBY GRANTS PERMISSION TO:
BROWN ROSEMARY
DESCRIPTION OF WORK: ERECT NEW 24 X 25 GARAGE, ATTACHED

LOCATED AT: 3630 CULP LN
LOT NO:
SUED:

I

:
(

i

BLK:
!

PARCEL NO: 23-2-08-03-00-000-007.001

This permit is granted on the express condition that the said construction shall in all respects, conform to
the Ordinances of the City of Alton, regulating zoning and construction of buildings, and may be revoked at
any time upon the violation of any of the provisions of said ordinances.
Est. Cost: $

18545

Fee:

$100.00

:
!

OWNER: BROWN ROSEMARY
ADDRESS: 3630 CULP LN
City Treasurer
PHONE: 462-6947
ARCHITECT:
I

CONTRACTOR: S & H CONSTRUCTION

I

PHONE: (618)462-6947

!
i

TTARVTTV

Code Inspector

i
i

:

THIS PERMIT MUST BE DISPLAYED IN A
WINDOW THAT IS VISIBLE FROM THE
STREET.

PERMIT EXPIRES 9 MONTHS FROM
ISSUE DATE!

'"A.!
*
■ V W*y.c,
■f}

A

CITY OF ALTON, ILLINOIS
DEPARTMENT OF BUILDING AND ZONING

BUILDING PERMIT
PERMIT NO. 04050037

i

DATE: 05/05/2004

This Permit Conveys no right to occupy any Street, Alley, or
Sidewalk, or any part thereof either temporarily or permanently.
THE CITY OF ALTON HEREBY GRANTS PERMISSION TO:
STOREY MICHAEL & VICKIE
DESCRIPTION OF WORK: INSTALL 4’ CHAIN LINK FENCE, APPROX. 1990 FEET
TOTAL LENGTH.

LOCATED AT: 1 CULP LN
LOT NO:
SUBD:

BLK:
PARCEL NO: 23-2-08-03-00-000-006.005

This permit is granted on the express condition that the said construction shall in all respects, conform to
the Ordinances of the City of Alton, regulating zoning and construction of buildings, and may be revoked at
any time upon the violation of any of the provisions of said ordinances.
Est. Cost: S

800

Fee:

S25.00

OWNER: STOREY MICHAEL & VICKIE
ADDRESS: 1787 STOREY LN
City Treasurer
PHONE: 465-7526
ARCHITECT:
CONTRACTOR: STOREYLAND MOBILE HOMES
PHONE: (618) 465-5263

I

wAnr.nMFP
Code Inspector

THIS PERMIT MUST BE DISPLAYED IN A
WINDOW THAT IS VISIBLE FROM THE
STREET.

PERMIT EXPIRES 9 MONTHS FROM
ISSUE DATE!
!

; SE-p/!J/20i5/FKI 06:13 AM

Dept.Building,Zoning

FAX h.m 46: 0372

P. 001/001

i'

2|§Y OF ALTON
SEPARTMENT of BUILDING & ZONING
i!
£ Third Street, Suite 204
^ Aitaca, lUUtoh 62002
Ph.: 6107463-3532 Fax: 6187463-0072
BUILDING PERMIT APPLICATION
DATE:
ADDRESS:
OWNER!
ADD/PH/FAX:

■3(>3o

CONTRACTOR:
ADD/PH/FAX:

-

S<hri

CoA%?Aucsfi4t^
i

ARCHITECT:
ADD/PH/FAX!
ELECTRICIAN:
ADD7PH/TAX:

j

^ aj#A

PLUMBER:
ADD/PH/FAX:
(

)

MECFANICAL:
ADD/PH/FAX:
ROOTER:
ADD/PH/FAX:

i

TYPE OF CONSTRUCTION:

P-^X 2l?~

/Ss&MrS/* -

>
!
i

COST OF WORK:

!

5.

/& *T4^- <tfo

i

I/we hereby agree to perform the above described work In accordance >vitfa the plat,
building plans and specifications submitted along with this application, and In strict
compliance with a! provisions of the zoning ordinance, building code and health reflations
of the City of Alton, Illinois.

)

1
CONTRA CTOIUOWNER:
PERMIT #:
APPROVED BY:

U7

FEE:S /DO. ao.

DATE:

i

;

/ ff

i 6 .1/„,.

(CODE INSPE(mmr
!

CITY OF ALTON, ILLINOIS
DEPARTMENT OF BUILDING AND ZONING

BUILDING PERMIT
PERMIT NO. 15090137

DATE: 09/14/2015

Tliis Permit Conveys no right to occupy any Street, Alley, or
Sidewalk, or any part thereof either temporarily or permanently.

I
i

THE CITY OF ALTON HEREBY GRANTS PERMISSION TO:
BROWN ROSEMARY
i

DESCRIPTION OF WORK: ERECT NEW 24 X 25 GARAGE, ATTACHED

LOCATED AT: 3630 CULP LN
LOT NO:
SUBD:

BLK:
PARCEL NO: 23-2-08-03-00-000-007.001

This permit is granted on the express condition that the said construction shall in all respects, conform to
the Ordinances of the City of Alton, regulating zoning and construction of buildings, and may be revoked at
any time upon the violation of any of the provisions of said ordinances.
Est. Cost: $

18545

Fee:

$100.00

;

OWNER: BROWN ROSEMARY
ADDRESS: 3630 CULP LN
City Treasurer
PHONE: 462-6947
j
1

ARCHITECT:
CONTRACTOR: S & H CONSTRUCTION
ffABVFV

PHONE: (618)462-6947

Code Inspector

<

THIS PERMIT MUST BE DISPLAYED IN A
WINDOW THAT IS VISIBLE FROM THE
STREET.

PERMIT EXPIRES 9 MONTHS FROM
ISSUE DATE!
i

•:

REC'D MAY 0 9 2003

I
‘

Mike Storey

PRELIMINARY PLAT
1ST ADDITION
BRANDON ESTATES SUBDIVISION

APPENDIX

F
MEETINGS
DENYING USE

«■

i

328/2019
.

Print

Subject:

FW: Mike Storey preliminary plat

From:

Deanna Barnes (dbames@cityofaltonil.com)

To:

storey landinc@yahoo. com;

Date:

Thursday, March 28, 2019 1:51 PM

S ore’'

,e -e. • ..<> S'o vc

. - . • V uti V

Tfv.' yus.

I

r• :
A.
<

F

•

c

i

.

P ■

r-

H

/v. 62 >0.
2X

T,

T

.i ir

. t n
on

•6

or ;f this •■n^ssage h
i i. ;nr !:

or

X

T.hair

•5

:

: d Street
6

'

63- (/■•’ 2

•.

i or

s this

eve . •

9

Oi En

Tie

S.

r.

•d • ■

' ■

*e
f - set- j f?r
:H-'ritr o,
'Or
- no, the »r

i
0!
■

;t

■>+<

■:p > i

•<

'*S

£

i S

r

;sc ssi e H'you* s kh u
;r •
u.

■«.

’ ^

r- •' sr

ii
re

v/ «

$y use

v

5 Jfc*

From: Bemie Sebold
Sent: Monday, March 4,2019 236 PM
To: Deanna Barnes <dbames@cityofeltoniLcom>
Subject: RE: Mike Storey preliminary plat

•er

g

? -v.

P r-

The cul de sac on his plans is not large enough. It is 50’ diameter a
S’ in diameter for a cul de sac, or a 120'
hammerhead (similar to a T), to accommodate fire apparatus turn e
_,v iCdcued out to the Fosterburg water
department and their records still show that the nearest fire hydrant will only flow 400 gpm of water. This is stfll sty of the 500 gpm
fire flow required and that is ifthe modular homes are equipped with fire sprinklers. Without fire sprinklers m modular homes the •T
required fire flow is 1,000 gpm. Thank you

£)</>, 6, r
about'blank

2-

1/3

328/2019

Print

Subject:

FW: Mike Storey preliminary plat

From:

Deanna Bames (dbames@cityofaltonil.com)

To:

storeylandinc@yahoo.com;

Date:

Thursday, March 28, 2019 1:51 PM

Mr. Storey

Please .see response to your inquiry below. Thank you!

Deanna Baraes
City of Alton, Illinois ’Planning & Development
.iOi East TJiii'd Street
Alton, Illinois 62002
Phone: (618) 462-3801 j Fax:(618)463-0972
E-Mail:

CONFIDEMTSALETY NOTICE: The contents of this email message and any attachments are intended solely for the addres«ee(s> and
may contain confident^! and/or privileged information and may be legally protected from disclosure. If you are not the intended recipient of
this message or their agent, or if this message has been addressed'to you in error, please immediately alert the sender by reply email
and then delete this message and any attachments. If you are not the intended recipient, you are hereby notified that any use,
dissemination, copying, or storage of this message or its attachments is strictly prohibited.

•A Please consider *tie e»wifour:e;vt before printing 'due crr.&i!

From: Bernie Sebold
Sent: Monday, March4,2019 236 PM
To: Deanna Barnes <dbames@cityofaltoniLcom>
Subject: RE: Mike Storey prefiminaiy plat

Dea>inti, my concerns regarding his devebprnettf are listed below.

The cul de sac on his plans is not large enough- It is 50’ diameter ano
hammerhead (similar to a T), to accommodate lire apparatus turn aro
department and their records still show that the nearest fire hydrant wi.
fire flow required and that is ifthe modular homes are equipped with fii
required fire flow is 1,000 gpm Thank you

aboutblank

MkJ,.

ti diameter for a cul de sac, or a 120’
out to the Fosterburg water
.ter. This is still shy ofthe 500 gpm
prinkiers in modular homes the

1/3

3/28/2019

Print

Rernie Sebold
City of Alton, Illinois - Alton Fire Department
333 C 20ih Sr
Alton, Illinois 62002
Phone: (618) 463-3565 \ Fax: (618)463-3539
E-Mail:

CONFIDENTIALITY NOTICE: The contents of this email message and any attachments are intended solely for the addressee(s) and
may contain confidential and/or privileged information and may be legally protected from disclosure. If you are not the intended recipient of
this message or their agent, oi if this message lias been addressed to you in error, please immediately alert the sender by reply email
and then delete this message and any attachments. If you are not the intended recipient, you are hereby notified that any use,
dissemination, copying, or storage of this message or its attachments is stnctly prohibited.

^ Pfeasc consider the environment before printing thin email

From: Deanna Bames
Sent: Monday, March 04,2019 1123 AM
To: Bemie Sebold <
Subject: Mike Storey preliminary plat

>; Bob Barnhart <

>

Hello!

Mike Storey is proposing a subdivision and plans to drop a preliminary plat by your office. Let me know ifyou do not receive it
and I w31 send you one.

Please take a look and get back with me with questions or concerns. Thanks and have a great day.

Deanna Barnes
City of Alton, Illinois - Planning & Development
101 East Third Street
Alton, Illinois 62002

Phone: (618) 463-3801 | Fax: (618) 463-0972
E-Mail:

aboutblank
ft

2/3
1

Minutes of a pre-application meeting held April 11,2019 at Alton City Hall.
Bemie Sebold Alton Fire Chief, Deanna Barnes Deputy Director of Planning and Development,
John Hales of JMH Consulting Services and Mike Storey applicant were in attendance.

This is a pre-application meeting to review and comment prior to preliminary plat submittal.
Mike Storey left 2 plats yesterday in addition to plats left earlier. Engineer has not had time to
review latest submittal.

The new plats show a 6 lot subdivision and a two lot subdivision. Hammerhead has been added.
Question of City Code requires Cul-de-sac. Fire Code allows hammerhead. Code requires public
right of way all the way around and sidewalks all around. Question of sidewalk on public street.
An ADA curb/ramp is required at Culp Lane, south side of Culp lane.
i

The new street requires a 4’sidewalk and a clear zone every 200’ to include a bump out 5’ wide
for wheel chairs to pass each other. Driveways with less than 2% slopes can be used for
pedestrian routes.

10,000 square foot and greater requires a retention pond. John Hales read the pre-application
process ordinance: see attached. Mr. Storey agreed to wait to have the meeting when the
engineer John Hales could be available and we agreed on April 11th, 2019 after Mr. Storey had
cancelled the meeting and asked to reschedule the week of April 11th.

Gas, water, electric, wastewater detention details are required. Wastewater will go east to Alton
system per Mike Storey.
Mike Storey suggested Alton should consider taking off mylar requirement.
?

Mike says he can get 400gpm water from Fosterburg Water District. Fire Chief says 201
International Fire Codes require 500gpm
C

12-2-3 Plan Commission hearing, city departments prior thereto for review and comment.

4

V* ‘

Preliminary Plat to Clerk to CC to Department Heads. Review and refer to Plan Commission.
Improvement plans need to be sealed by civil engineer and public improvements must be
completed or bonded.

y\

0

V

Property has one garage there currently, doesn’t meet code. Mike Storey got a permit for a
garage, mobile home there at the time, mobile home has been moved. City turned down.
1 and 2 family dwellings - not enough fire flow to put structure there.
''-‘“v-TK--- •

Mike proposed a two lot subdivision. Water is 1700 feet away. Mike can’t get easement to get
to water source. Mike says American Water can’t serve. Culp lane owners own to center of
road, neighbors will not allow an easement.

Mike thinks the City of Alton gets a free water extension. Mike says the cost is $450,000. One
route would be to go across the Jones private property.
Mike said the Franchise agreement allows 10 hydrants and 1000 feet of main.
Fire Chief says that there have been no deaths in fully sprinkled units.
Mike Storey said he has the same water flow as when annexed in 1986 with 220 acres and now
there is only 5 acres remaining. Agreement #96 July 9, 1986.
Fire Chief says if not sprinkled need lOOOgpm per fire code.
John Hales says the property is not in the Fosterburg water district, but Illinois American’s
district. Mike Storey says Illinois American Water cannot serve his site, have to deannex and go
to Fosterburg water district.

Mike Storey has some options to consider. Property at 3622 Culp Lane is zoned R-6.
5 foot intervals are required. The plat shows 1 foot contours currently and the 5 foot contours
will have to extend to Ihe east line of the proposed subdivision.
Mike said he draws the plats and SMS prints them.
John Hales suggested that Mr. Storey look at his comments and resubmit.
Mike Storey said he would just do a two-parcel subdivision for one manufactured home on the
existing pad and there is an existing private sewage disposal system by Brad’s home to the west.
County permits private sewage disposal systems on lots with certain acreage.

Respectfully submitted by Deanna Barnes

"i ijri

•: 15

. I-,

iJai e .

j— i't t

^ afters the tod by moving din aJLl

Much discussion on can

r

I

w. ■

h,S P"*** Mb. Robinson staled Mr

^tebedi„idrf,„60,MdMtleMte^fosincie^traite

or mobile home jwrlc?
In favor: None.
In opposilion:
* Brad Sweetman
opposes because he does nut know what Mr.
want mobile homes.
Storey will be putting there and because lw do es noi
Came Robinson opposes because this project was
started several years ago and he has only moved din.
ongoing. Notagoodpasthistory.
This is
‘

-

.

stated heacveiUne* Ihereqmreniems.Thc How was

how he wou,J

^^SSSS^SSST

Mr. Bock

Per Jim Schrempf made part of the
record, a letter dated ,019m, 4 pages, ft*, Stora-yl.nd Mobile Ho
the land “a park”.
me Park about making

Spin land? Read 12-2-1 (B), no streets present

*

He explained

cost hiSf 'S"i “ ’“y °V" "" pht C°n“ Mr Stoc-Vs engineer be a ihe next hearing? Me. Slorey stated
no. it would
Mr
«oggt brnTl^Mr. Sto^SjuS jj^^DW“rlmiV to P^eed and he chose to.
Mr. Schrempf agrees with Mr.

-

^£52?" r“wd *■ *-*—-

Efrrjsr zsrn”" -—- * t <*.

on to dose public hearing.

S^^SSSSSS^tST

a Rood hazard area.

r-ertnsm1rr - -

9 Wes, of ,hc Third Principal Meridian, MadisorTConmy.^llinoj^**
Vote was 0 in favor and 6 in opposition.
Adjourned 3:00
.Attachments

• *- -«,».

°f *“•*““ 3’ T™*P * Nwih,

■
.n

•e- '

(V.

x

CITY OF ALTON

,y

Fsrc Department
333 East Twentieth Street
Alton, 1L 62002-6816

TIMOTHY O, SPAULDING
FIHECHIEP
July 27. 2004

Mr. Storey.
As i stated in my previous leper, the Insurance Services Office, Inc. {ISO] sets the fire flow
standards recognized by this office. Their standard and subsequent ratine of overall fire
protection in our community has a direct bearing on insurance premiums. This means everyone's
premium...yours. Alton Square Mali's, Alton Steel Corporation’s, or mine. This rating is very
important. Justifying further disregard of these standards by citing previous allowances or
oversights is. in my opinion, unacceptable.
However, the previous administration here on the Alton Fire Department stated the flow for your
subdivision must be 500gpm. This is half the flow recommended by ISO. At the time of this
requirement the City of Alton used the BOCA Codes for new construction. The City has since
adopted the International Building Codes. Both these sets of building codes make reference to
NTPA 24 for required fire flow. NFPA 24 states that a layout plan for the water flow system
must be submitted to the authority having jurisdiction for approval. Furthermore, bolit codes state
the authority having jurisdiction will determine required fire flow and hydrant location. If you
lefcrence the Alton City Code you will find that that authority is the Office of the Fire Chief.
Now. as for as ploys by the city administration to single out Mike Storey and stop the Brandon
F.stnte subdivision, I have no knowledge of this. Nevertheless, let us certainly be done with the
B.S. and get straight to the ILL. (bottom line)...that being this...when you have a plan fora
sjngie source water supply that can generate SOOiMim for two hours duration please feel free
to submit it to this office for approval. Not two hydrants that can supply the flow.. .one single
hydrant. At that time we will inspect and test the system for approval. Until then, please send all
further inquiries in regard to the Brandon Estates water system to James E. Shrempf Aiton City
Attorney. 307 Henry Street. P.O.Box 725, Alton. Illinois, 62002. Thankyou

Smcsptly,
Timothy D. Spaulding
Aiton City- Fire Chief
cc. Mayor Stmdidge
Jim Schrempf
Phil Reggio

(615)463-3565 • Fax

8)463-3539

1
f

CITY OF ALTON
Fire Department
333 East Twentieth Street
Alton, IL 62002-6816

THOMAS E. CHAPPELL
FIRE CHIEF

June 24, 2002

James E. Schrempf
Attorney at Law
307 Henry St., P. O. Box 415
Alton, IL 62002
RE:

Required Fire Flow

Dear Mr. Schrempf:
Per your request for the water infrastructure requirements and codes setting forth those
requirements, the following codes apply:
The Fire Chiefs authority in this matter is established in Title 10 of the Alton City Code (Ord.
6131, adopted 2-26-1997, amd. 1999 Code):
Chapter 10-1-2 designates the Fire Chief to be “Code Official”;
Chapter 10-1-3 gives enforcement authority.
Chapter 9-1-1 (Ord. 6603, 9-26-2001) adopts the 1999 BOCA National Building and
National Fire Codes. Chapter 1 of both Codes gives enforcement authority.
The Fourth Edition of the IFSTA Water Supplies for Fire Protection manual states in Appendix
B, “ISO Guide for Determination of Required Fire Flow” that the “fire flow shall not be less
than 500 gpm ”
You may also contact the Insurance Service Office who rate Fire Departments. Their phone
number is 1-800-444-4554 or on the web, VAvw.isomitisation.com.
If you have any further questions, or need additional information, please do not hesitate to call
me.
Yours truly,

Stephen A. Mikoffi
Assistant Chief
(

(618)463-3565 • Fax (618) 463-3539

I

3' <-& c

-cp

'V-- l-'lr-!

:-'-eri

• -"4.14.

“«/••(=

'C-

•4.

CITY OF ALTON
Fire Department
333 East Twentieth Street
Alton. IL 62002-6816

THOMAS E. CllAJM’ELL
I'lRE CII1KF

4C3/03
Mr. Roggio:
Regarding the Brandon Estates development proposed by Mike- Storey.
As the Authority Having Jurisdiction (AHJ) herein Alton I must stand firm on my
requirement of a fire hydrant within this development cr on Culp Lane near the entrance
to the development that will flow a minimum of 500 gallons per minute at 20 psi.
Unfortunately the Foster Water hydrant just west of the intersection of Culp Lane and his
proposed kmc comes off a 4” main and only flows 340 gpm. .As the developer Mr.
Storey is responsible for supplying the needed gpm flow to protect the development.
There are some ways to achieve the necessary flow, here are three: Improve the main
size running down Culp Lane from 4” to 8”; bring in an 8” main from the south off of the
Elinois American main running down Storey Lane; put in an elevated 30,000 gallon
water tank, the tank bottom must be 42 feet front the ground to achieve the necessary'
pressure by gravity flow. The 250 gpm provided by the lank will supplement the fire
hydrant for the Insurance Sendees Office’s (ISO) 2 hour minimum. The tank option
would have to be designed by an engineer, approved by this office, and installed by
people licensed in this type of work.
The Alton Fire Department is not equipped to draft water in an emergency
therefore, an underground cistern lank or lifting water fiom the nearby lake arc not
options.
The 500 gpm required for the proposed six lot development will be subject to a
new review and analysis if the lotsizes arc decreased to provide for a greater number’of
residences.

Thomas L. Chappell
Fire Chief

(618)463-3565 » Fa,'. (618)463-3539

V

■'" "H -.7-'

CITY OF ALTON
Fire Department
333 East Twentieth Street
Alton. 1L 62002-6816

THOMAS E. CHAPPELL
FIRE CHIEF

*?

ivlr. Derrick ThomasA local developer, Mike Storey, wants lo develop a dead end cul-de-sac running sotab

from Culp Lane. The new Ians is proposed to be 410 feel Ions* with manufactured homes
approximately 1000 lo 1200 square feet in size. The homes will be less than 30 feet apart
from wall to walk
Presently there is a 4 inch main miming east and west down Culp Lane with a fire
hydrant 260 feet from the intersection of Culp and his new lane. Culp Lane runs
concurrently with the city limits from Fosterburg Road to Stanley Road in tne
northeastern most comer of Alton. Foster Water Company owns the 4 inch main and
Alton is serviced by Illinois American Water Company. The most recent flow test
information I have from Foster Water is that the hydrant was rated at 340 gpm.
1 have insisted that a fire hydrant must be included in the development that will flow 500
epm. Mr. Storey has asked to run an 8 inch main down his lane finm the 4 inch main on
Culp Lane. Mr. Storey is proclaiming he can have a 5000 gal Ion water tank placed at
ground level with a 100 or 200 gpm pump attached to supplement flow in the S inch mam
that will be attached to the 4 inch main.
I

Is this feasible?
i f it is, what impact will it have on our rating?
If erecting a tank is possible what is the right way to approach this scenario?
ihank you,

JL !/

- tO-w.

1
i

Tom Chappell
Fire Chief

/v

P.S. I’m sure I will have more questions later. Thanks again.

1618)463-3565 * Faxjhl 8) 463-3539

1

Minutes of a pre-application meeting held April 11,2019 at Alton City Hall.
Bemie Sebold Alton Fire Chief, Deanna Barnes Deputy Director of Planning and Development,
John Hales of JMH Consulting Services and Mike Storey applicant were in attendance.

This is a pre-application meeting to review and comment prior to preliminary plat submittal.
Mike Storey left 2 plats yesterday in addition to plats left earlier. Engineer has not had time to
review latest submittal.

The new plats show a 6 lot subdivision and a two lot subdivision. Hammerhead has been added.
Question of City Code requires Cul-de-sac. Fire Code allows hammerhead. Code requires public
right of way all the way around and sidewalks all around. Question of sidewalk on public street.
An ADA curb/ramp is required at Culp Lane, south side of Culp lane.

The new street requires a 4’sidewalk and a clear zone every 200’ to include a bump out 5’ wide
for wheel chairs to pass each other. Driveways with less than 2% slopes can be used for
pedestrian routes.
f

10,000 square foot and greater requires a retention pond. John Hales read the pre-application
process ordinance: see attached. Mr. Storey agreed to wait to have the meeting when the
engineer John Hales could be available and we agreed on April 11th, 2019 after Mr. Storey had
cancelled the meeting and asked to reschedule the week of April 11th.

Gas, water, electric, wastewater detention details are required. Wastewater will go east to Alton
system per Mike Storey.
Mike Storey suggested Alton should consider taking off mylar requirement.

Mike says he can get 400gpm water from Fosterburg Water District Fire Chief says 201
International Fire Codes require 500gpm
12-2-3 Plan Commission hearing, city departments prior thereto for review and comment.
Preliminary Plat to Clerk to CC to Department Heads. Review and refer to Plan Commission.
Improvement plans need to be sealed by civil engineer and public improvements must be
completed or bonded.

>.L

Property has one garage there currently, doesn’t meet code. Mike Storey got a permit for a
garage, mobile home there at the time, mobile home has been moved. City turned down.
1 and 2 family dwellings - not enough fire flow to put structure there.

Mike proposed a two lot subdivision. Water is 1700 feet away. Mike can’t get easement to get
to water source. Mike says American Water can’t serve. Culp lane owners own to center of
road, neighbors will not allow an easement.

Mike thinks the City of Alton gets a free water extension. Mike says the cost is $450,000. One
route would be to go across the Jones private property.
Mike said the Franchise agreement allows 10 hydrants and 1000 feet of main.
Fire Chief says that there have been no deaths in fully sprinkled units.
Mike Storey said he has the same water flow as when annexed in 1986 with 220 acres and now
there is only 5 acres remaining. Agreement #96 July 9,1986.
Fire Chief says if not sprinkled need lOOOgpm per fire code.
John Hales says the property is not in the Fosterburg water district, but Illinois American’s
district. Mike Storey says Illinois American Water cannot serve his site, have to deannex and go
to Fosterburg water district.

Mike Storey has some options to consider. Property at 3622 Culp Lane is zoned R-6.
5 foot intervals are required. The plat shows 1 foot contours currently and the 5 foot contours
will have to extend to the east line of the proposed subdivision.
Mike said he draws the plats and SMS prints them.
John Hales suggested that Mr. Storey look at his comments and resubmit.
Mike Storey said he would just do a two-parcel subdivision for one manufactured home on the
existing pad and there is an existing private sewage disposal system by Brad’s home to the west.
County permits private sewage disposal systems on lots with certain acreage.

Respectfully submitted by Deanna Barnes

3/28/2019

Print

/.•>

o’/ r-r:.
•
E 2C;h Si
A 3 ir ’ • oPo*/ ’2
F
■ (6 i 463- 3565 , F
E-V •...

. .'l?

~ 1

j33

n

TY-.:

I
tf

cc ■' n c<
>r .s
or tf
; ' sen • • e ti
• s iti- J*

It!?

Cc

, or oi
fi- -•? rr

O'

:i in^m
S'

TV­

■s em
Ei

n

,s

./) 46*-7539

rr

c:.....

t. •-> k

it

<-

>'•5

r

E-

.

y*c

i.

O'' fC

'S ~

f!
T

if,

s

f -otect. •
'n
.1 ‘
••■or. ;
•
.1 re

s

t

• ir

. i

=)

3C 3Si s ' vou

sr

the

.t.'t

j recipiei of

I

j are

■i..

i

I

T

a iy jse,

Sl!

f

From: Deanna Barnes
Sent: Monday, March 04, 2019 1123 AM
To: Bemie Sebold <
Subject: Mike Storey preliminary plat

>; Bob Barnhart <

>

Hello!

Mike Storey is proposing a subdivision and plans to drop a preliminary plat by your office. Let me know ifyou do not receive it
and I wifl send you one.

Please take a took and get back with me with questions or concerns. Thanks and have a great day.

Deanna Barnes
City of Alton, Illinois - Planning & Development
101 East Third Street
Alton, Illinois 62002
Phone:(618)463-3801 j Fax:(618)463-0972
E-Mail:

about:blank

2/3

?■

Thursday, April 11th, 2019
3:10PM
In attendance John Hales, Deanna Barns, Mike Storey, Bernie Sebold.

Deanna - This is a pre-application meeting. John - Mike, yesterday at 1:30 pm you dropped off two
different plats to me and with in 24 hours we are having this meeting in which I have not had the time to
review the 2 different versions of your preliminary plat. I don't want to speak for the others, but I have
not had the time to review the two different versions in detail. I bring this up because you have
submitted a preliminary plan, we have provided comments and then you show up with a different plan. I
can discuss this in general.
Mike Storey- that is all I am looking for at this point because. Basically, there is a trick to this because
you can divide it into 60 ft tots because they are less than an acre of ground. I can take that 360 and
divide it into 6 lots. John -1 am sorry I do not follow. Mike - Because of the plat act. John- what 360ft?
Mike - On the new plat, this is 360 ft and I could cut a 60ft lot, and this could be back to the 18 lots
when this thing is done. I did this to simplify it. I didn't realize you had to have sidewalks on both ends of
it. John - We have a difference of codes. The City code calls for it to be a circular cul-de-sac, with a 50 ft
radius on the edge of the pavement. The Fire Code calls for other things, if we were to review this then
my comment would be that the cul-de-sac at the end of the street, that it does not meet the city code
and I would point that out to the planning commission. However knowing that it is in the Fire Code I
would defer it to Bernie, that if a hammer head met his requirement, it would be for the planning
commission to over rule my objection or the over rule that plan commission and if they had to give a
variance or something. The Fire Code is a part of the City Code. I would have to point out the book and
page that it does not meet the City Code but then leave it to the Fire Chief to point out the Fire Code
does meet. Mike - He sent me correspondence that this would be acceptable. Bernie -1 sent you
correspondence of what is acceptable by the Fire Code. That is from the Fire Code aspect only, it has not
gone through the Plan Commission and that is where John identifies that City Code states that you have
to have a cul-de-sac. Is it possible that it will be allowed based on what the Fire Code reads? Yes. Is it
possible that the City wants something more stringent and says "you know what we think it is better to
have a cul-de-sac" This is the purpose of this meeting. Mike - When reading through the city code l
never came across the term cul-de-sac. Bernie -1 sent you the Fire Code. John City Code section 12.4.4
Mike - It does cul-de-sac? John - No, it says radius of a rectangle. Mike- You are right it does say that in
there. John - You had a comment in there and you do know that the hammer head or the cul-de-sac,
has to be public street right of way, and there would have to be right of way all the way around. Mike That is what I got. John - It says in the city code that you would have to side walks on each side of the
street. Mike - Because this is already a public street there is no requirement to put a sidewalk in.
besides, I think it would be stupid to have a 290ft sidewalk in the middle of nowhere. John -1 hadn't
even thought of that and now that I think of it Mike, you may need to put a sidewalk in on Culp Lane, I
hadn't even considered the South side of Culp Lane. I was just considering around the edge of the street,
but thanks for bringing that up, I may have that. Mike -1 am not real sure on the sidewalks and fo down
and end at certain intersections. Down here where you have to put them this way and that way, how
often do you have to do that? John- You mean in the ADA Curb ramp. Mike- What do they require? I
could see maybe here over to Culp Lane to the end of this. John - At the end near Culp lane I would

\

expect you to put an ADA ramp so that a pedestrian could walk all the way around this street, you don't
have to put one mid lot but they need to be able to walk all the way around here and then if they want
to get in a nightly walk they can get across the street. Mike- there would only need to be one going
toward the concrete street, not towards Culp Lane? John - Right, because there are no sidewalks on
Culp Lane and no place for them to walk. Its call PAR in the ADA Code, it is a pedestrian access road and
you must have 4ft wide sidewalks for a complete PAR. If you were to go Downtown Alton, there are
sidewalks with tables and trashcans. However, there must be a 4ft clear walk path for pedestrians to
have the PAR. Then every 200ft there must have a bump out in the sidewalk that is 5ft instead of 4 ft,
that allows for two wheelchairs to pass through. You have also asked me before and Driveways also
access as a pedestrian passing point, but you must remember pedestrians have taken over the rule of
design and sidewalks need to have cross walks a no greater than 2%, so if this is going to be a PAR it
needs to be pretty flat and nothing greater than 2%. You will also have other requirements about how
steep it can be towards the backend of your property. Mike-And this may go as an outlot, originally, I
wanted to put a lake down in this area and leave all this open, later to get a retention pond in there to it
when it is needed. I looked it up and on a 1 lot subdivision, if it goes that way there is no need for a
retention because we aren't changing anything. John - If you verify that there is Section 6 Chapter 14,
There is an exception to if an area of development or redevelopment contains an area of more than 10,
000 or more square feet of impervious surface you have to do a retention basin and if your doing more
than 100 cubic yards. There is an exception for individual houses that if it is under 10000 than you are
not required to have the retention basin. If you build a nice concrete street out there you will have
retention. Mike - And a single lot doesn't require any of that. John - Lets go into some of the
requirements, Deanna do you have a list there that should go on the record? Deanna - Yes, I do John This is just part of the City Code and I feel that it should be made part of the record. John Reads the Pre
Application requirements. Pre-Application meeting shall be scheduled within 15 days of the request,
unless a later date is agreed upon and we have agreed to defer the meeting later due to my being out of
town. The purpose of the conference is to familiarize the subdivide with requirements and standard law
assisting the city and coordinating land development and street plans. The subdivide shall submit a
preliminary Plan which is like the pre preliminary plan and the following information will be included in
the sketch plan north scale and couture lines, and there is a location map north arrow and scale and
contour line, and that requirement is met. Any adjacent contiguous parcels of land in which the
subdivide has an ownership [ benefit in full or partial ownership beneficial interest in a land trust. Mike,
do you have any beneficial interest? Mike -1 don't have any exactly, but I do have a 15 ft easement for a
sewer line that goes all the way down there. John- You have disclosed that you have a 15ft easement
that runs across the north line of the former Rose Lawn golf course owned by Tom and Cindy Jones
which abuts the southside of your property. Not monetary but there is a beneficial interest, for a sewer
line. Existing zoning of the property 100 ft of the property, he has indicated the zoning is r6 and property
and adjacent zoning is indicated whether it is in the City of Alton or in Madison County. Placement of
proposed
John-16:30 -17:23 Cant hear.

2-

John - Site plans, lots and lots with numbers, yes, that Is on the sketch plan as well. The meeting shall
take minutes of the meeting and we do have two recorders going. One for Mike Storey and one for
Bernie Sebold, which someone from the city will transcribe. Plat where filed and exceptions, cant hear....
Mike Storey-Two things, when are people at this day and age going to take the require mylar and
prints law? Also it states in there that I have to electronically transmit it and I don't know who has a CAD
program that I can electronically send the file to? John - these drawing were made in Auto CAD I do not
have a way to access the Auto Cad file nor does anyone in my company. You must possess a license and I
do not have one. I personally do not have a problem with the electronic copy, but it does say Mylar and
Prints and that has always been acceptable to do Mylar. I don't have the capability and I don't think
anyone at City Hall has to do Auto Cad, unless you reduce it and convert to a PDF File. Mike - The reason
that I brought it up is because I think they need to take the requirement for Mylar off there, nobody
uses it and County doesn't even have a way to use it anymore. John - That is true, and the City should
consider that in the Future but for right now that is what the Code reads. Mike - City Code says that I
must have adequate water supply? Bernie - Based on the information that I have from the Fosterburg
water district is 400 gallons which does not meet the requirements of the 2015 international fire code. If
the planning commission or the city council wants to give a variance. John - There is apart that I want to
make clear for the record, Section 12-2-3 of the City Code. The Plan Commission shall consider the
scheduling of a public hearing of planning and development further the preliminary plat shall be
forwarded to all the City departments to be reviewed and for comments prior to the hearings. When
you're doing a subdivision, you send a preliminary plat and all the necessary copies get submitted to
Mary Bold the City Clerk who take it to the City Council where it is introduced and deferred to the
Planning Commission. The planning commission will then ask all city departments and officials to review
and comment, give it back and the planning commission will then make a determination. Their
determination is not even final, they will make a recommendation to the Alton City Council at the
meeting following and their goal will be to proceed from the preliminary plat. After the preliminary plat,
there are many steps to go through. Improvement plans, sewers, waterlines and streets and everything
that is on the preliminary plat. The details are to be included on the Improvement plan, those be seen by
civil engineers and then you have permits to obtain. Then your options are to complete those
improvements and file your city plat after the improvements are completed or you can bond for the
completion of those improvements and meet the requirement that way. Mike - A one lot subdivision
that does not require, but already has water to it and power. If I turn this in now, you must remember
the stipulation is I can come over here and put in another mobile home. Would I meet the code or not?
Bernie - You are talking about continuing to develop undeveloped property. There are no structures on
those locations currently. Mike - There is on this one. Bernie - Is that an occupied structure? MikeThere is no mobile home, there is a garage there. Bernie - Well, I believe that is an issue as well. City
code does not allow a garage by itself. Mike - Code reads that you can not build a garage on a lot
without an existing home. We got a permit to put a pad in and we got a permit to put a mobile home in
we got a permit and built a garage. We pulled the Mobile home out and now I am supposed to tear the
garage down? It says that you can not build it unless there is an existing unit there and when it was built
it and got a permit. Bernie -1 do not have any comment on that Mike. My interpretation is of the 2015
International Fire Code. Mike -There is a water meter on the lot, technically I can build a home on that

lot. You are telling me about the water flow, if it caught on fire it will not take any more water to put it
out as if it is divided into 20 lots or 1 lot, there is nothing on it, it will only take so much water to put it
out. Bernie - The building requirement are 1 and 2 family dwellings are R4, the building requirements
are not for an undeveloped field. Mike - But what I am asking is based on today, 1 lot subdivision, it
does not meet the code? Bernie - There is not a structure on that right now? Correct? Mike - There is,
the garage. Bernie - That is not a 1 or 2 family dwelling. Mike - Ok and If I brought this in to get
approved, are you going to tell me I can not divide this property because I don't have the water flow?
Deanna - What are you trying to divide Mike -1 have 1 lot subdivision. Deanna - You are just trying to
divide that lot out from the rest of your property? Mike - Yes. Bernie -1 am only in jurisdiction when it
comes to the fire code and interpretation. My recommendation based on the water flow that you can
not put that structure there. It is a single-family dwelling. Mike - It was there before. Bernie - Mike, I
am interpreting the fire code. There are options. Mike - What are the Options? Bernie - How far away is
the water line? Mike -1 can not get easement to it. I have a letter coming from American Water saying
that can not service that property and I would need to get easement from neighbors that won't sign off
on it. They hated the Mobile home park there is no way they would let me in there, they brought it up at
past meetings. John - On that particular subject, Mike mentioned this to me before and it is true, on the
older type of rural streets like Culp Lane or either farther out in the County they were not dedicated
right of ways for utilities and people did own to the center of the streets, and that has been a problem in
rural areas. I have not researched your plan; I am sorry I have not had the time to go to the County and
check about whether they do own to the center of the street or not. The water line is 1600 or 1700 feet
away, it has 650 gallon per minute pressure, there is one farther east on Stanley Road. Mike -1 can't use
that one, the water company says they'd drain their tank if I used that one. John - There is a water line
and as Bernie was saying if you need easements, get the easements. Mike- They wont give the
easements, I have talked to them. The City of Alton gets free water main and they have 5 miles of them,
all they must do is pick up the phone and call American Water. The cost to do this one is $450,000, and
the City can have it done for nothing. Or they can go in front of my house and bring it straight across the
field, and if Jones ever developed that they would have a water main in for nothing. Bernie -1 think that
would have to be further researched, because none of those lots are City property. I don't know the ins
a nd outs of that franchise agreement. What you are proposing is that the City of Alton using that Main
coming across properties that are not in the City of Alton to get to a property that is in the City of Alton.
Mike - This one would be going through the private property going across the back yard. Jones, and if
they ever developed that they would already have the Main there. John -1 saw information when
viewing previous files for pre annexation, there was a resolution through the Alton City Counsel that
indicated the City Counsel requested the water line. Again, City department head can not go and call the
Water Company. Bernie - It is at the recommendation from the department head and that department
to make that recommendation. The Franchise agreement was 10 hydrants and 1000 feet of water a
year, and I don't know if this agreement is any longer current. Are you planning on selling these lots?
Mike -1 have no idea at the moment. Bernie - Ok, so will you have any control as to what the mobile
home that goes on that property will look like? Mike - Yes. Bernie - But only if you maintain ownership
of the lots, otherwise you would not have control over that. Would you have any control over whether
it was constructed with a residential fire sprinkler system? Mike - There are none like that. Bernie -1

have done my research and it drives the price up. A residential fire sprinkler keeps it in check and there
have been no documented fire fatalities in fully sprinkled buildings.
Mike -1 have 5 acres and I can not use them. When they were accepted into the City of Alton, they had
1*0 problem signing it off, it has the same water flow now as it did then. If it didn't have enough water
flow it should not have been annexed into the city. This will probably never happen, and I need to get
something for my attorney that states that I cannot use this property. Bemie - When was this annexed
into the City? Mike -1986 Bernie - And how big was the original parcel? Mike - 220 acres. Bernie - and
since then it has been subdivided down and you now have 5 acres. I ask because I am curious as to what
the code was in 1986 when this took place. Mike - The water is the as it was when this property was
a nnexed and if it didn't meet code then it should have never been annexed. Bernie- Was the property
a tways annexed R6? Mike - Yes. Bernie - Let's say this was annexed in 1955 you cannot expect the
municipality in 2019 to adhere the building codes that were dated back in 1986, that does not make
logical sense. Mike -1 am not asking to change building code from that point, they never mentioned
changing any water supply. It basically says that they were taking the ground the way it is. Bernie - But
you are wanting to develop it now. Mike -1 started in 2003. Bernie -1 know, and it is not 2003 any
longer it is 2019. Mike - It is an ongoing thing and is grandfathered. Bernie- It is not grandfathered. John
- I am reviewing the 2019 plat that you have submitted, not what you submitted 20 years ago. Mike B ut it has been ongoing as far as being turned down because of the water supply. If we go with the one
lot, you shouldn't have any issues, because Phil's thing was, I needed 60ft for this, which I disagree with.
He said it must have 60 ft with the street. John - If you are going submit something that breaks it up into
a couple lots, it needs to be labeled outlot A and so on. You are dividing a parcel. Eventually you may
want to re-subdivide that and they need to be labeled. Getting back to the water for a second, you say
that you are not going to use the sprinkler the requirement is 1000 gallons per minute. Secondly for
your attorney's clarification, you are not in foster township water district and you cannot receive water
from foster township, there are ways to get around that. This is a map of the certificate area; it clearly
shows that this property is in American water certificated area and that is who can supply you with
water. You are able and willing to go get the documentation from Illinois American Water and Foster
Township to present because you will need documentation because you can not get water from Foster
Township. Greenbriar development annexed out of Illinois American water and went into Foster
Township. Mike-The Mile and half law does not apply to them because they are not a subdivision?
John - Yes, why don't you de-annex out of the City of Alton and then you can follow Madison County
requirements? There are so many options for you to consider and you need to decide as to what you
want to do so that we can review what you are going to do instead of coming in here and reviewing
several different options. Conversation Ensues....

Meeting adjourned

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL STOREY
V
CITY OF ALTON

I, Michael Storey, Petitioner do hereby certify and attest that all
documents presented with-in this petition for a writ, motion for leave to
proceed in forma pauperis and any appendices presented in support of these
documents contain only facts I personally know to be true and complete.

Michael Storey
P.O. Box 112 Cottage Hills, IL 62018

618-917-1544

Notarized this 12th day of July, 2021

wwwwwvt,

OFFICIAL SEAL
MEGAN E WEST
1
;

:
:

NOTARY PUBLIC-STATE OF ILLINOIS :
MY COMMISSION EXPIRES:12/27/22 i

JUL 1 6 202}

mrauH/v

SUPREME COURT OF ILLINOIS
WEDNESDAY, MARCH 24, 2021
THE FOLLOWING CASES ON THE LEAVE TO APPEAL DOCKET WERE DISPOSED
OF AS INDICATED:

126347

In re Commitment of Frankie Walker (People State of Illinois,
respondent, v. Frankie Walker, petitioner). Leave to appeal, Appellate
Court, Second District. 2-18-1035
Petition for Leave to Appeal Denied.

126379

People State of Illinois, petitioner, v. Jennifer M. Stoffle, respondent.
Leave to appeal, Appellate Court, Second District. 2-19-0431
Petition for Leave to Appeal Denied.

126486

Holsten Management Corporation, respondent, v. Chong Hao Su,
petitioner. Leave to appeal, Appellate Court, First District. 1-18-1130
Petition for Leave to Appeal Denied.

126508

People State of Illinois, petitioner, v. Drew W. Barger, respondent.
Leave to appeal, Appellate Court, Third District. 3-16-0316
Petition for Leave to Appeal Denied.
Carter, J. took no part.

i

126533

Arthur G. Jaros, Jr., petitioner, v. The Village of Downers Grove et al.,
etc., respondents. Leave to appeal, Appellate Court, Second District. 218-0654
Petition for Leave to Appeal Denied.

126598

People State of Illinois, petitioner, v. Willie Walls, respondent. Leave to
appeal, Appellate Court, Second District. 2-13-0761
Petition for Leave to Appeal Denied.

126608

People State of Illinois, respondent, v. Kenyatta White, petitioner.
Leave to appeal, Appellate Court, First District. 1-18-2237
Petition for Leave to Appeal Denied.

126781

People State of Illinois, respondent, v. Joshua Hargrow, petitioner.
Leave to appeal, Appellate Court, First District. 1-18-1615
Petition for Leave to Appeal Denied.

126782

People State of Illinois, respondent, v. Charles Edward Boyer,
petitioner. Leave to appeal, Appellate Court, Second District. 2-20-0028
Petition for Leave to Appeal Denied.

126783

People State of Illinois, respondent, v. Marvin Lee, petitioner. Leave to
appeal, Appellate Court, First District. 1-17-1621
Petition for Leave to Appeal Denied.

126784

Louis Hermansen et al., respondents, v. James J. Riebandt et al.,
petitioners. Leave to appeal, Appellate Court, First District. 1-19-1735
Petition for Leave to Appeal Denied.

126785

Michael Storey, petitioner, v. The City of Alton, respondent. Leave to
appeal, Appellate Court, Fifth District. 5-20-0065
Petition for Leave to Appeal Denied.
Overstreet, J. took no part.

126787

In re Marriage of Stephen M. Calk, petitioner, and Donna L. Calk,
respondent. Leave to appeal, Appellate Court, First District. 1-18-2512
Petition for Leave to Appeal Denied.

126789

People State of Illinois, respondent, v. Frederick Rokita, petitioner.
Leave to appeal, Appellate Court, Fifth District. 5-17-0339
Petition for Leave to Appeal Denied.

